           REPORT ON THE
FEDERAL COMMUNICATIONS COMMISSION
          FISCAL YEAR 2006
       FINANCIAL STATEMENTS

   06-AUD-06-03       November 15, 2006




        Office of Inspector General

                  *******

    Federal Communications Commission
          OIG TRANSMITTAL MEMORANDUM




06-AUD-06-03   REPORT ON THE FEDERAL COMMUNICATIONS        Page i
               COMMISSION’S FY 2006 FINANCIAL STATEMENTS
TABLE OF CONTENTS



OIG Transmittal Memorandum .........................................................................................................i


Table of Contents...............................................................................................................................ii


SECTION I             Independent Auditor’s Report....................................................................................1


SECTION II Independent Auditor’s Report on Compliance and Other Matters ............................3


SECTION III Independent Auditor’s Report on Internal Control....................................................6


Principal Financial Statements

     Consolidated Balance Sheet.........................................................................................................25

     Consolidated Statement of Net Cost ............................................................................................26

     Consolidated Statement of Changes in Net Position ...................................................................27

     Consolidated Statement of Budgetary Resources ........................................................................28

     Consolidated Statement of Financing ..........................................................................................29

     Consolidated Statement of Custodial Activity.............................................................................30

     Notes to Financial Statements......................................................................................................31


Appendix A            Status of Prior Year Recommendations


Appendix B            Management Response to Audit Report




06-AUD-06-03                     REPORT ON THE FEDERAL COMMUNICATIONS      Page ii
                                 COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION I             INDEPENDENT AUDITOR’S REPORT




                                Independent Auditor’s Report


To the Inspector General of the
  Federal Communications Commission

We have audited the accompanying consolidated balance sheets of the Federal Communications
Commission (FCC) as of September 30, 2006 (fiscal year 2006) and 2005 (fiscal year 2005), and
the related consolidated statements of net cost, changes in net position, financing, and combined
statements of budgetary resources, and custodial activity for the years then ended (hereinafter
collectively referred to as the “consolidated financial statements”). These consolidated financial
statements are the responsibility of the FCC’s management. Our responsibility is to express an
opinion on these consolidated financial statements based on our audits.

Except as explained in the following paragraph, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 06-03,
Audit Requirements for Federal Financial Statements. Those standards require that we plan and
perform our audit to obtain reasonable assurance about whether the consolidated financial
statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the consolidated financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statements’ presentation. We believe our
audits provide a reasonable basis for our opinion.

The scope of our examination in fiscal year 2005 was limited because the FCC could not provide
a representation letter signed by management who, in the auditor’s view, is responsible for and
knowledgeable, directly or through others, about the matters in the representation letter. As a
result, we did not obtain sufficient, competent, evidential matter for applying audit procedures
necessary to conduct an audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards and OMB Bulletin No. 06-03.

Because of the matter discussed in the preceding paragraph, the scope of our work was not
sufficient to enable us to express, and we do not express, an opinion on the FCC’s consolidated
financial statements for the fiscal year ended September 30, 2005.




06-AUD-06-03          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 1
                      COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION I             INDEPENDENT AUDITOR’S REPORT




In our opinion, the consolidated financial statements for fiscal year 2006 present fairly, in all
material respects, the financial position of the FCC as of September 30, 2006, and the related
statements of net costs, changes in net position, budgetary resources, custodial activity, and
reconciliation of net costs to budgetary obligations, for the year then ended, in conformity with
accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 1, 2006 on our consideration of the FCC’s internal control over financial reporting,
and on our tests of the FCC’s compliance with certain provisions of laws and regulations and
other matters. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are
an integral part of our audit performed in accordance with Government Auditing Standards and
should be considered in assessing the results of our audit.

Our audits were made for the purpose of forming an opinion on the basic financial statements
taken as a whole. The Management Discussion and Analysis required supplementary
information and other accompanying information contain a wide range of data, some of which is
not directly related to the financial statements. We do not express an opinion on this
information. However, we compared this information for consistency with the financial
statements and discussed the methods of measurement and presentation with the FCC officials.
Based on this limited work, we found no material inconsistencies with the financial statements or
nonconformance with OMB guidance.


a1
Calverton, Maryland
November 1, 2006




06-AUD-06-03          REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 2
                      COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE AND
                         OTHER MATTERS




             Independent Auditor’s Report on Compliance and Other Matters


To the Inspector General of the
Federal Communications Commission


We have audited the financial statements of the Federal Communications Commission (FCC) as
of, and for the year ended September 30, 2006, and have issued our report thereon dated
November 1, 2006. We conducted our audit in accordance with the auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of the United States; and,
Office of Management and Budget (OMB) Bulletin 06-03, Audit Requirements for Federal
Financial Statements.

The management of the FCC is responsible for complying with laws and regulations applicable
to the FCC. As part of obtaining reasonable assurance about whether the FCC’s financial
statements are free of material misstatements, we performed tests of the FCC’s compliance with
certain provisions of laws and regulations, non-compliance with which could have a direct and
material effect on the determination of financial statement amounts. We limited our tests of
compliance to these provisions and we did not test compliance with all laws and regulations
applicable to the FCC.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph, disclosed instances of non-compliance with the following laws and regulations that
are required to be reported under Government Auditing Standards and OMB Bulletin No. 06-03,
Audit Requirements for Federal Financial Statements, which are described below.

OMB Circular No. A-127, Financial Management Systems

OMB Circular No. A-127 prescribes policies and standards for executive departments and
agencies to follow in developing, operating, evaluating, and reporting on financial management
systems. The policies and standards include the following areas:

   Integrated Financial Management System.
   Application of the Standard General Ledger at the Transaction Level.
   Federal Accounting Standards.
   Financial Reporting.




06-AUD-06-03          REPORT ON THE FEDERAL COMMUNICATIONS                               Page 3
                      COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE AND
                         OTHER MATTERS




   Budget Reporting.
   Functional Requirements.
   Computer Security Requirements.
   Documentation, Internal controls, training and user support and maintenance.

In fiscal 2006, as in prior years, the FCC did not fully meet the above criteria as explained in
more detail in our Independent Auditor’s Report on Internal Control (IC Report). The key items
we identified include:

   The FCC reporting components’ financial management systems do not fully comply with the
   requirement of the standard general ledger to record activity at the transaction level.
   The FCC’s financial information system is not fully integrated. Data comes from various
   subsystems and spreadsheet programs for the accounting, preparing, and reporting of
   financial statements.
   The reviews of financial management systems conducted by the FCC did not fully comply
   with the requirements of Section 7 of the OMB Circular No. A-127, Financial Management
   Systems Requirements, to determine whether they meet the functional requirements
   established by OMB’s Office of Federal Financial Management (OFFM).

OMB Circular No. A-129, Policies for Federal Credit Programs and Non-Tax Receivables

Between 1993 and 1995, the FCC offered special financing arrangements to assist small
entrepreneurs to obtain licenses. The Narrowband Personal Communication Services licensees
were allowed to make installment payments on the remaining balance of their licenses over a 10-
year period after an initial 20% down-payment. These installment payments were not reported
under the Federal Credit Reform Act until Fiscal Year 1997 when OMB advised FCC to report
these installments payments as “direct loans.” A direct loan is defined in Sec. 502 of the Federal
Credit Reform Act as a disbursement of funds by the Government to a non-Federal borrower
under a contract that requires repayment of such funds with or without interest. These
Narrowband licenses did not have installment payment plan notes stating the loan amounts and
terms at origination. In addition, security agreements were not issued by the FCC for this block
of loans. The total outstanding balance for these loans was $78 million as of June 30, 2006.
There have been no new Narrowband loans issued since at least fiscal year 1997.

OMB Circular No. A-129, Section III, Loan Documentation, states “Loan origination files
should contain loan applications, credit bureau reports, credit analyses, loan contracts, and other
documents necessary to conform to private sector standards for that type of loan.” Additionally,
Section IV, Loan Servicing Requirements, states that “Approved loan files (or other systems of
records) shall contain adequate up-to-date information reflecting the terms and conditions of the
loan, payment history, including occurrences of delinquencies and defaults, and any subsequent
loan actions which result in payment deferrals, refinancing or rescheduling.”



06-AUD-06-03          REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 4
                      COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE AND
                         OTHER MATTERS




Debt Collection Improvement Act of 1996 (DCIA)

In accordance with the Debt Collection Improvement Act of 1996, the FCC is required to refer
eligible receivables that are delinquent to Treasury for collection or offset. Eligible receivables
include those that are not the subject of litigation, related to foreclosure proceedings, or from
organizations in bankruptcy. The FCC’s Treasury Report on Receivables ,for administrative
receivables, submitted to the Department of the Treasury as of June 30, 2006, disclosed that no
amounts have been referred for off-set and only $9.8 million of the $92.9 million of receivables
was referred to the Department of the Treasury for cross-servicing. Further, the FCC did not
perform an annual computer match of their delinquent debts with records of Federal employees
as required by the DCIA. See IC Report, Section VI, for a more detailed explanation.

                             ********************************

We also noted certain immaterial instances of noncompliance that we have reported to
management of FCC in a separate letter dated November 1, 2006.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit, and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FCC, FCC
Office of Inspector General, GAO, OMB and Congress, and is not intended to be and should not
be used by anyone other than these specified parties.


a`1
Calverton, Maryland
November 1, 2006




06-AUD-06-03          REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 5
                      COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III            INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                          CONTROL




                      Independent Auditor’s Report on Internal Control


To the Inspector General of the
 Federal Communications Commission


We have audited the financial statements of the Federal Communications Commission (FCC) as
of and for the year ended September 30, 2006 and have issued our report thereon dated
November 1, 2006. We conducted our audit in accordance with the auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of the United States; and,
Office of Management and Budget (OMB) Bulletin 06-03, Audit Requirements for Federal
Financial Statements.

In planning and performing our audit, we considered the FCC’s internal control over financial
reporting by obtaining an understanding of the FCC’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of
controls in order to determine our auditing procedures for the purpose of expressing our opinion
on the financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives described in OMB Bulletin No. 06-03, Audit Requirements for Federal
Financial Statements. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act (FMFIA) (31 U.S.C. 3512),
such as those controls relevant to ensuring efficient operations. The objective of our engagement
was not to provide assurance on internal control. Consequently, we do not provide an opinion on
internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in our judgment, could adversely affect the agency’s ability
to record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud in amounts that would be
material in relation to the financial statements being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions.

Because of inherent limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. However, we noted certain matters discussed in the



06-AUD-06-03           REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 6
                       COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                         CONTROL




following paragraphs involving the internal control and its operation that we consider to be
reportable conditions. However, none of the reportable conditions are believed to be material
weaknesses.

Finally, with respect to internal control related to performance measures reported in the FCC’s
Performance and Accountability Report, as of September 30, 2006, we obtained an
understanding of the design of significant internal controls relating to the existence and
completeness assertions, as required by OMB Bulletin No. 06-03. Our procedures were not
designed to provide assurance on internal control over reported performance measures, and,
accordingly, we do not provide an opinion on such controls.

                            ********************************

REPORTABLE CONDITIONS

I.     Financial Reporting

       During the fiscal year 2006, the FCC management made substantial progress in
       strengthening controls over financial reporting and the information technology processes.
       Some of the key initiatives include detailing a number of management personnel to
       address various personnel shortages in key operations within the Office of the Managing
       Director, and the establishment of a taskforce to address prior audit findings. However, a
       number of conditions continue to exist:

       A. Integrated Financial Management Systems

          OMB Circular No. A-127, Financial Management Systems, requires that each agency
          establish and maintain a single integrated financial management system. Without a
          single integrated financial management system to ensure timely and accurate financial
          data, poor policy decisions may occur due to inaccurate or untimely information.
          Managers are less likely to be able to report accurately to the President, Congress, and
          the public on Government operations in a timely manner.

          The OMB, Office of Federal Financial Management’s (OFFM), formerly the Joint
          Financial Management Improvement Program (JFMIP), publication on “Core

          Financial System Requirements”, lists the following integrated financial management
          system attributes:

              o Standard data classifications (definition and formats) established and used for
                recording financial events.



06-AUD-06-03          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 7
                      COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                        CONTROL




              o Common processes used for processing similar kinds of transactions.
              o Internal controls over data entry, transaction processing, and reporting applied
                consistently.
              o A system design that eliminates unnecessary duplication of transaction entry.

        We identified the following:

              The FCC’s Core Financial System

              The FCC utilizes Federal Financial System (FFS) as its general ledger and core
              financial management system. This system is not an integrated financial
              management system as defined by OMB Circular A-127. Software applications
              such as Revenue Accounting and Management Information System (RAMIS), the
              property management system, license databases, and various spreadsheets (for
              International Telecommunication Services (ITS) transactions and auction
              transactions) were independent systems, not integrated with the FFS.

              In addition, the FCC’s consolidated financial statements were compiled and
              prepared from four separate core financial systems administered by four separate
              reporting components. At financial statement preparation time, FCC goes through
              the process of compiling financial data in separate spreadsheets in a complex and
              time-consuming process. The financial data included in the spreadsheets is
              consolidated for financial statement preparation.

              Recommendation:

              1. Ensure the integration of the overall financial management systems.

              Contractor Loan Servicing Database

              The design of the FCC’s contractor loan servicing database is based on functional
              requirements established in the contract with the FCC. However, the contract,
              and consequently the system, did not include certain functional requirements for
              direct loan systems as required by the OFFM. Therefore, the loan-servicing
              database is not fully compliant with OFFM requirements.

              Recommendation:

              2. Assess the need to modify the existing contract to authorize the loan service
                 provider to implement the necessary functional requirements to meet OFFM
                 requirements for a direct loan system.



06-AUD-06-03         REPORT ON THE FEDERAL COMMUNICATIONS                                Page 8
                     COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                        CONTROL




              USF Standard General Ledger

              On October 3, 2003, the FCC released an order that requires the administrators of
              the USF and TRS funds to prepare financial statements for the funds that are
              consistent with generally accepted accounting principles for Federal entities
              (Federal GAAP) and to keep accounts for the funds in accordance with the United
              States Standard General Ledger (USSGL).

              In fiscal year 2006, the administrator of the Universal Service Fund (USF)
              continued to account for the USF with a non-government general ledger system.
              Our audit disclosed that the account numbers did not fully comply with the United
              States Standard General Ledger (USSGL) accounts structure. During the
              compilation of the interim financial statements as of June 30, 2006, the FCC had
              to map USF account numbers to specified USSGL accounts. Further, the
              investment activities were not integrated into the general ledger system. Entries
              are posted manually every month at the summary level. The USF administrator
              indicated that plans are in place to replace the existing system in 2008 because it
              lacks the functionality required to comply with the USSGL.

              USF Subsidiary Systems

              In the prior year, the Commitment Adjustment (COMAD) transactions were
              tracked in a separate sub-ledger due to the inability of the USF general ledger
              system to handle multiple sub-ledgers. On a monthly basis, the outstanding
              COMAD balances were input into the system via a top-sided entry (a summary
              general ledger entry entered manually into the general ledger system). In fiscal
              year 2006, the USF administrator continues to track COMAD and accounts
              payable transactions on a separate spreadsheet (sub-ledger); not interfaced with
              the general ledger system.

              Recommendation:

              3. Ensure that the USF general ledger system is in full compliance with the
                 Financial Management System requirements and the USSGL.

     B. Federal Financial System Setup and Posting Model

        In fiscal year 2006, the FCC continued to use FFS system setup and posting model
        definitions that were not completely updated. Our audit identified instances in which
        the approved USSGL account definitions did not agree with the accounts used on the
        FCC trial balance. Also, the FCC continued to use outdated posting models for the



06-AUD-06-03         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 9
                     COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III        INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                      CONTROL




        auction and ITS transactions. For instance, the related incorrect postings aggregated
        for the auction transaction was $172 million. The outdated definitions continued to
        require corrections to the transaction postings through monthly journal vouchers. The
        incorrect posting model definitions resulted in non-compliance with Treasury’s
        USSGL Accounting Transactions when recording and classifying some transactions.
        This system deficiency may continue to impair the quality and reliability of the ITS
        and the auction financial management information.

        Recommendation:

        4. Perform a periodic or quarterly update of and correct the FFS system setup and
           posting model definitions to ensure that transactions are posted to the general
           ledger properly to eliminate or minimize the risk of errors and the time consuming
           efforts of identifying and preparing monthly adjustments.

     C. Financial Statement and Federal Agencies’ Centralized Trial-Balance System II
        (FACTS II) Differences

        The FACTS II is a computer program for agencies to submit mostly budgetary
        information required for the Report on Budget Execution and Budgetary Resources,
        the Year-end Closing Statement, and much of the data that will appear in the prior
        year column of the Program and Financing Schedule of the President’s budget.

        In Fiscal Year 2006, as in prior years, our audit identified significant differences
        between third quarter FACTS II account balances and the balances reported on the
        FCC’s third quarter financial statements. The differences occurred because the
        incorrect version of the financial statement was used for the FACTS II submission.

        GAO’s Standards for Internal Control in the Federal Government states that,
        “Internal control should provide reasonable assurance that the objectives of the
        agency are being achieved in the reliability of financial reporting, including reports
        on budget execution, financial statements and other reports for internal or external
        use.”

        Recommendation:

        5. Implement effective quality control procedures to ensure that external reports are
           reviewed prior to submission.




06-AUD-06-03       REPORT ON THE FEDERAL COMMUNICATIONS                               Page 10
                   COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III        INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                      CONTROL




     D. Auction Transactions

        Although the flow of communication and auction documentation between the
        Wireless Telecommunications Bureau (WTB) and the Auction Accounting Group
        (AAG), an office within the Financial Operations Center (FOC), has improved
        significantly in FY 2006, the FCC has not formalized the communication,
        coordination and reporting practices into written policies and procedures. The WTB
        is the primary source of substantial activities on auctions and licensing that trigger
        accounting transactions to be acted upon by the FOC. The Lack of formal policies
        and procedures on a significant FCC operation increases the risk of noncompliance,
        misunderstanding, or confusion, ultimately impacting the financial statements.
        Also, management did not establish a database for the WTB that is capable of being
        linked or interfaced with the core financial system to create an audit trail and record
        of delinquent winning bidders whose licenses were cancelled and then re-auctioned,
        including the amounts collected or received from the re-auction. Because auctioning
        licenses is a significant FCC operation, it is essential that information about the
        current status of a license and its history be easily accessible, providing bureaus and
        offices with the ability to update and share both financial and non-financial
        information.

        Recommendations:

        6. Issue written policies and procedures within the WTB outlining responsible
           offices, authority, responsibilities, timelines, and others to ensure that all auction
           and licensing activities with financial impact are reported to FOC for timely and
           proper recording.
        7. Establish a database for the WTB that is capable of being linked or interfaced
           with the core financial system to create an audit trail and record of delinquent
           winning bidders whose licenses were cancelled and then re-auctioned, including
           the amounts collected or received from the re-auction. The comprehensive
           schedule should be periodically reviewed and reconciled.

     E. Spreadsheet Subsidiary Ledger System

        As noted above, the FCC and USF use a number of spreadsheet based systems for its
        accounting applications. For example, the FCC’s management decided not to
        implement the RAMIS Auction Accounting and the ITS modules in FY 2005 because
        the modules were deemed unusable and unreliable. A spreadsheet subsidiary ledger
        system therefore continued to support auctions activity in Fiscal Year 2006 and will
        remain in place until a new core financial system is selected and implemented. These
        spreadsheets support the flow of transactions throughout the year. In FY 2006, the



06-AUD-06-03       REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 11
                   COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                        CONTROL




         FCC implemented controls over the spreadsheet applications to ensure that changes
         are reviewed and authorized, and that formula cells are protected.

         Although the controls that were instituted improved the controls over the use of the
         spreadsheets, the inherent risks and limitations noted below associated with a
         spreadsheet-based application in a complex accounting operation remain.

         •    Substantial manual intervention, thereby increasing the risks of human errors.
         •    Formulas can be changed easily, affecting the flow through the rest of the
              spreadsheets.
         •    Difficulty in tracking changes made to spreadsheets, including formula changes.
         •    Difficulty in verifying change controls and that error correction changes were
              made.
         •    Unique transactions are difficult to incorporate.
         •    Difficulty in performing automatic checks and balances on the transactions in the
              spreadsheets.
         •    Delay in recording transactions in the general ledger.
         •    Increase in the use of journal vouchers as a means of posting transactions to the
              general ledger.

         Recommendation:

         8. Evaluate existing spreadsheet applications and determine ways to reduce the
            number of spreadsheets involved in the financial reporting process.

II.   Component Entities’ Financial Reporting Controls

      GAO’s Standards for Internal Control in the Federal Government states, “Internal
      controls activities help ensure that management’s directives are carried out. The control
      activities should be effective and efficient in accomplishing the agency’s control
      objectives.” Examples of control activities include proper execution of transactions and
      events, accurate and timely recording of transactions and events, and appropriate
      documentation of transactions and internal control. In addition, “Internal controls should
      generally be designed to assure that ongoing monitoring occurs in the course of normal
      operations. It is performed continually and is ingrained in the agency’s operations. It
      includes regular management and supervisory activities, comparison, reconciliation, and
      other actions people take in performing their duties.”

      OMB Circular No. A-136, Financial Reporting Requirements, states “When the reporting
      entities of which these components are a part, issue consolidated or consolidating




06-AUD-06-03         REPORT ON THE FEDERAL COMMUNICATIONS                               Page 12
                     COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                        CONTROL




     statements that include such components, generally accepted accounting principles
     (GAAP) for Federal entities shall be applied to these components.” Also, FCC Order 03-
     232 required the administrators of USF and TRS to prepare financial statements
     consistent with generally accepted accounting principles for Federal entities and to
     account for the funds in accordance with USSGL.

     We identified the following two areas needing improvement:

     A. Policies and Procedures:

        Policies and procedures supporting key activities either did not exist for most or part
        of the year and are still in draft. Those identified include:

        •     Policies and procedures for following up on weaknesses noted in other reports,
              such as the SAS No. 70, Reports on the Processing of Transactions by Service
              Organizations.
        •     Policies and procedures to support the establishment of accounts payable when
              Service Provider (SP) invoices are reviewed and approved by USAC.
        •     Policies and procedures established for recording budgetary transaction for TRS
              activities.

        Lack of policies and procedures for key activities could create confusion and
        misunderstanding, thus increasing the risk that transactions are not recorded promptly
        and properly, and subsequently affecting the reliability of financial information.

        Recommendation:

        9. Finalize all financial policies and procedures still in draft starting with those listed
           above.

     B. Recording and Reconciling Activity:

        •     USF’s chart of accounts is not consistent with the USSGL. The accounting
              structure used for recording USF transactions are not in a manner consistent with
              the USSGL. For example, USAC uses Account #113000-20 for Cash invest-
              SLD-SLD while the corresponding USSGL account that should have been used is
              1130: Funds Held by the Public. The accounts are subsequently cross-walked to
              USSGL accounts at the time the financial statements are prepared.
        •     Budgetary transactions are not recorded to the appropriate general ledger accounts
              on a timely basis. Instead, transactions are captured on subsidiary ledger




06-AUD-06-03         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 13
                     COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III             INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                           CONTROL




                 spreadsheets and, on a monthly basis; the appropriate adjustments are made to the
                 general ledger.

             Not recording or a delay in recording of transactions diminishes the value of financial
             management reports for decision-making purposes. GAO’s Standards for Internal
             Control in the Federal Government states “Transactions should be promptly recorded
             to maintain their relevance and value to management in controlling operations and
             making decisions.”

             Recommendation:

             10. Ensure implementation of the USSGL posting model and recording at the
                 transaction level.

III.      Tighten FCC Oversight of the Components Entities’ Activities

          The FCC has the ultimate oversight of the reporting components’ financial accounting
          activities. In many instances, the reporting components consult with the FCC or obtain
          the FCC’s written approval, concurrence, or direction before implementing critical
          accounting issues; wherein some of these issues may impact on program policies. In
          Fiscal Year 2006, we noted certain significant accounting transactions issues mentioned
          below, affecting the reporting components that have not been acted upon by the FCC.

       A. Title to Monetary Assets and Investments

          Title to USF cash and other monetary assets, and investment accounts maintained at three
          different banks are held directly in the name of the USF administrator without identifying
          the fiduciary relationship of the administrator, and not showing any indication that the
          accounts are the property of the USF. Also, North American Numbering Plan (NANP)’s
          cash and other monetary assets maintained at the billing and collection fund
          administrator’s bank lock box were held in the administrator’s name, without reference to
          the custodial relationship of the administrator.

          Recommendation:

          11. Direct the USF and NANP administrators to require the banks to clearly identify the
              accounts as assets owned by USF or NANP, and that the administrators be limited to
              a fiduciary role.




06-AUD-06-03            REPORT ON THE FEDERAL COMMUNICATIONS                                Page 14
                        COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III        INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                      CONTROL




  B. Controls Over Compliance with Laws and Regulations

     The report titled Evaluation of Federal Financial Requirement prepared by an
     independent accountant dated July 15, 2005 confirmed the applicability of certain federal
     laws and regulations to USF relating to financial management and identified several non-
     compliances with these laws and regulations. The laws and regulations include OMB
     Circular A-127 Federal Managers Financial Integrity Act (FMFIA), OMB Circular A-
     123 and the Prompt Payment Act (PPA). The USF administrators have indicated that non
     compliance with the OMB Circulars are mainly due to a system limitation that will be
     addressed when a new financial system is implemented in 2008. On the applicability of
     the PPA to USF, the FCC guidance was not received by USAC until October 2nd 2006.
     In that guidance, the FCC concluded that the PPA does not apply to USF.

     Recommendation:

     12. The FCC’s management should provide timely guidance to the USF administrators
         when consulted on matters to enhance fund management controls and compliance
         capability.

  C. Collateral for TRS Cash

     The TRS fund administrator did not have a collateral agreement with the FCC’s lock box
     bank on behalf of USF to provide coverage for deposits in excess of Federal Deposit
     Insurance Corporation (FDIC) insured amount of $100,000. The Treasury Financial
     Manual 2-3400, Accounting for and Reporting on Cash and Investments Held Outside of
     the U.S. Treasury, states that “the Federal Government’s interest in cash and investments
     held outside of Treasury accounts further extends to requiring that the deposits be made
     by Federal agencies in non-Treasury bank accounts be secured by collateral to the extent
     that the deposits exceed the protection covered by the FDIC.” We were informed during
     the audit that TRS management is in the process of obtaining a collateral agreement with
     the lock box bank.

     The Federal Government’s interest in cash and investments held outside of Treasury
     accounts may be at risk since the excess deposits exceed the protection covered by the
     FDIC.

     Recommendation:

     13. Direct the TRS fund administrator to finalize a binding collateral agreement that is
         sufficient indemnification for all funds deposited, ensuring that it is effective
         immediately.



06-AUD-06-03       REPORT ON THE FEDERAL COMMUNICATIONS                               Page 15
                   COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III            INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                          CONTROL




      D. Accounts Receivable Reconciliation

         The FCC does not perform a reconciliation of the accounts receivable (AR) balances
         transferred from USF to the FCC for purposes of referring accounts to Treasury covered
         by the Debt Collections Improvement Act (DCIA).

         The AR balance transferred to the FCC as of June 30, 2006 per the FCC AR sub-ledger
         was $84,923,693 while the corresponding amount per USF AR Sub-ledger amounted to
         $87,707,965. Based on the reconciliation provided by the component entity, we noted
         that the FCC did not record material transactions communicated to them as of June 30,
         2006. These include:
         •   Unrecorded balance transferred to the FCC                      $ (7,146,113)
         •   Unrecorded balance transfer reversal                           $ 11,502,429
         •   COMMAD Transferred not recorded by the FCC                     $ (1,060,461)
         •   The FCC duplicated balance transferred by USAC                 $    285,294
         •   RAMIS balance includes lawsuit balances not on USF report      $ 3,316,005

         Lack of prompt and periodic reconciliation may result in misstatement of the account
         balance on the quarterly financial statements.

         GAO’s Standards for Internal Control in the Federal Government states “internal control
         should generally be designed to assure that ongoing monitoring occurs in the course of
         normal operations. It is performed continually and is ingrained in the agency’s
         operations. It includes regular management and supervisory activities, comparisons,
         reconciliations, and other actions people take in performing their duties.”

         Recommendation:

         14. Perform periodic reconciliation (preferably monthly but at least quarterly) of the
             accounts receivable transferred from the USF to the FCC.

IV.      Cost Accounting

         A. Minimum Level of Cost Accounting

             FCC has defined its responsibility segments for financial reporting purposes.
             However, for the consolidated financial statements, which include the component
             entities, the defined responsibility segment is not adequate to cover the component
             entities, individually regarded as responsibility segments. Also, documentation
             provided does not indicate that the FCC has determined the output relating to the




06-AUD-06-03           REPORT ON THE FEDERAL COMMUNICATIONS                             Page 16
                       COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III        INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                      CONTROL




        responsibility segments, nor has it calculated the related output costs for those
        responsibility segments as part of its cost allocation methodology.

        Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial
        Cost Accounting Concepts and Standards requires a minimum level for cost
        accounting to provide basic information to accomplish the many objectives associated
        with planning, decision-making, and reporting. This minimum level includes, among
        others, measuring full cost of outputs, providing information for performance
        measurement, and providing useful information, and accommodating any of
        management’s special cost information needs that may arise due to unusual or special
        situations or circumstances.

        Recommendations:

        15. Enhance Budget Execution and Management System (BEAMS) functionality to
            satisfy the minimum level of cost accounting required in a managerial cost
            accounting system as required by SFFAS No. 4.
        16. Define outputs produced by the responsibility segments and incorporate the
            definition into the Statement of Net Costs allocation methodology.

     B. Matching Revenue to Cost

        The FCC’s cost allocation system, BEAMS, is configured to allocate earned revenues
        in the same proportion as allocated costs instead of matching related revenues to
        costs. SFFAS No.7, Accounting for Revenue and Other Financing Sources and
        Concepts for Reconciling Budgetary and Financial Accounting states, “Related
        revenue should be matched with the cost.”

        Recommendation:

        17. Review the propriety of the costing methodology and the matching of earned
            revenue against costs. Include a review of different program activities that
            generate revenue and apply the revenue to those activities that produce the earned
            revenue.

V.   Payroll and Personnel Activities

     GAO’s Standards for Internal Control states “transactions should be accurately recorded
     in a timely manner”. One of the control activities used to accomplish this goal requires
     the performance of reconciliations and having controls in place to detect errors.




06-AUD-06-03       REPORT ON THE FEDERAL COMMUNICATIONS                               Page 17
                   COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                        CONTROL




     Weaknesses identified in the prior year audits on payroll activities have not been
     corrected.

     ••   Leave error reports received from the National Finance Center (NFC), showing
          differences between NFC’s leave record for each employee and the FCC’s leave and
          earnings (LES) statements were not reconciled. Although management performed
          several audits reconciling the LES reports and NFC system, our audit continues to
          identify multiple instances where significant differences were not reconciled for all
          categories of leave balances such as, annual leave, sick leave, compensatory time, and
          credit hour categories.

          Management explained that the NFC System has a cumbersome duplicative process
          that allows for two sets of leave balances. This is an inherent problem with the NFC
          system. Hence, until NFC modifies their system (which is not in the foreseeable
          future) or unless the FCC spends considerable funds to migrate to a different
          payroll/personnel provider, the problem of leave discrepancies will not be resolved.

     ••   Invalid project codes identified in FFS remain uncorrected for a long period of time.
          The existing procedures are to facilitate payment of salaries and wages rather than
          correct invalid project codes. Financial Systems Operation Group (FSOG) generates
          an invalid project code report from FFS and posts corrections to a single project code,
          E0200, regardless of what the employee should have charged time against.

          The FCC’s new time and attendance system, STARweb is not configured to reject
          invalid project codes; therefore, an incorrect project code is accepted into the NFC
          payroll system.

          Recommendations:

          18. Increase the NFC and the FCC system reconciliation procedures to include all
              leave categories.
          19. Ensure that timekeepers perform monthly reconciliation of time and attendance
              report errors generated from the FCC’s desktop payroll reconciliation system.
          20. Enhance the LES system capabilities to reject incorrect project codes from being
              entered in the system in the first place.
          21. Issue guidance to establish timeframes for employees to correct invalid project
              code errors.
          22. Provide the FCC contact person at NFC a listing of uncorrected project codes
              monthly.




06-AUD-06-03         REPORT ON THE FEDERAL COMMUNICATIONS                               Page 18
                     COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III            INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                          CONTROL




VI.    Debt Collection Improvement Act

       The Debt Collection Improvement Act of 1996 (DCIA) requires agencies to: (1) notify the
       Department of the Treasury (Treasury) of all debt delinquent by more than 180 days for
       offset, and (2) refer to the Treasury, with some exclusions, all debts delinquent more than
       180 days for cross-servicing debt collection.

       Our review of the Treasury Report on Receivables (TROR) as of June 30, 2006, disclosed
       that no amounts of administrative receivables had been referred to Treasury for offset,
       and only $ 9.8 million of eligible administrative receivables out of a total of
       $ 92.9 million had been referred for cross-servicing. This issue has been reported in prior
       years.

       Our audit also noted that management had not implemented controls to ensure that debts
       that were delinquent were assessed interest, penalties, or administrative fees as allowed
       by the DCIA and the FCC’s rules, 47 CFR Part 1.1940 Interest, Penalties, Administrative
       Costs and Other Sanctions Assessment.

       The lack of referral of all delinquent debt to Treasury or the non-assessment of interest,
       penalties, or administrative fees on delinquent debts results in noncompliance with the
       DCIA.

       Recommendations:

       23. Refer all eligible delinquent debt more than 180 days old to the Treasury for offset or
           timely cross servicing.
       24. Perform a review of the delinquency debt letter procedures to ensure that all
           delinquent debtors receive dunning letters and interest, penalties, and administrative
           fees are assessed in conjunction with the submission of the letters to the debtors.

VII.   Compliance with OMB Circular No. A-130, Requirement for a Comprehensive
       Security Plan

       Effective information security management is critical to the FCC’s ability to ensure the
       reliability, availability, and confidentiality of its information assets, and thus its ability to
       perform its mission. If effective information security practices are not in place, the FCC’s
       data and systems are at risk of inadvertent or deliberate misuse, fraud, improper
       disclosure, or destruction—possibly without detection.

       OMB Circular No. A-130, Management of Federal Information Resources, Appendix III,
       Security of Federal Automated Information Resources, as revised in November 2000,



06-AUD-06-03           REPORT ON THE FEDERAL COMMUNICATIONS                                    Page 19
                       COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III         INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                       CONTROL




     established a minimum set of controls for Federal agencies, including risk assessments,
     assigning responsibility for security, security planning, periodic review of security
     controls, and management authorization of systems to process information.

     Although the FCC has made progress in implementing important elements of its
     information security program, including establishing its Computer Security Program –
     the FCC Directive 1479.2, a computer security program group and appointing a senior
     information security officer to manage the program, it has not fully implemented other
     essential elements. The FCC has not consistently implemented important information
     security practices and controls, including fully implementing its certification and
     accreditation program, ensuring that sensitive data transmissions are encrypted, and
     ensuring a memorandum of understanding and/or interconnection security agreements are
     in place. These deficiencies in security controls decrease the FCC’s ability to protect its
     sensitive or critical resources. Specifically, deficiencies include the following:

     •   One of FCC’s security manuals has expired. The FCC has not issued a new directive
         to replace the expired security directive 1131.1.
     •   The FCC has not established policies and procedures to ensure that all sensitive data
         to and from its contractors are protected, remain private and that critical business
         transactions remain trusted and secure.
     •   We noted that one of the FCC’s major financial applications had control weaknesses
         associated with the enforcement of the “principle of least privilege”, which allowed
         some users inappropriate access to “override” privileges.
     •   The FCC has not enforced a program for the periodic recertification of users’ access
         to its major applications.
     •   The FCC’s re-certification of the contractor loan servicing system was incomplete
         and did not uncover certain weaknesses that the contractor knew about.
     •   One of the FCC’s major financial system applications has had significant changes to its
         operating environment. Both the operating system and the database system have been
         changed. The financial application was put into production before the certification
         and accreditation was completed as required by FCC Directive 1479.2.
     •   Logical access is not always promptly revoked after the separation of employees and
         contractors.
     •   The FCC does not have signed Memorandum of Understanding and/or
         Interconnection Security Agreements (ISA) for all major external entities that the
         FCC shares data with, or whose systems are interconnected with the FCC systems.
     •   The FCC did not certify and accredit a major application before authorizing it to
         operate.
     •   Security weaknesses were noted in an operating system that supports some of the
         FCC’s major applications.




06-AUD-06-03        REPORT ON THE FEDERAL COMMUNICATIONS                               Page 20
                    COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                         CONTROL




       •   The FCC does not require and/or maintain access authorization forms for its major
           applications to ensure that appropriate level of access is granted based on job function.

           Recommendations:

           25. Issue a new directive to replace the expired security directive 1131.1.
           26. Ensure that transmission of all sensitive data to and from the FCC’s contractors
               and business partners is protected and encrypted.
           27. Ensure that the “principle of least privilege” is adequately enforced across all
               major applications and general support systems.
           28. Ensure that periodic recertification of users’ access to its major applications is
               adequately enforced and operating effectively to ensure the “principle of least
               privilege” is in place and that incompatible duties are properly segregated.
           29. Ensure that the recertification process for all systems (including contractors) is
               thorough and complete.
           30. Recertify and accredit major applications that have had significant changes to
               their operating environment before being placed into production in accordance
               with NIST Special Publication 800-37 and FCC Directive 1479.2.
           31. Implement procedures to ensure the prompt revocation of access to the FCC
               resources at the effective date of termination of employees and contractors.
           32. Ensure that Memorandum of Understanding and/or Interconnection Security
               Agreements (ISA) are signed with all major external entities that the FCC shares
               data with, or whose systems are interconnected with the FCC systems.
           33. Ensure that all new major applications are certified and accredited before being
               placed in to production.
           34. Ensure that security weaknesses noted in a major operating system is addressed
               and that a comprehensive security review is conducted.
           35. Maintain access authorization forms for all major applications to ensure that
               appropriate level of access is granted based on job function.

STATUS OF PRIOR YEAR COMMENTS

As required by Government Auditing Standards and OMB Bulletin No. 06-03, we have reviewed
the status of FCC’s corrective actions with respect to the findings and recommendations from the
previous year’s report on internal controls. Details of the status of the recommendations are
reported as Appendix A to this report.

                             ********************************




06-AUD-06-03          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 21
                      COMMISSION’S FY 2006 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON INTERNAL
                         CONTROL




In addition to the reportable conditions described above, we noted certain matters involving
internal control and its operation that we reported to the management of FCC in a separate letter
dated November 1, 2006.

This report is intended solely for the information and use of the management of FCC, FCC
Office of Inspector General, OMB, the Government Accountability Office and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.


a1
Calverton, Maryland
November 1, 2006




06-AUD-06-03          REPORT ON THE FEDERAL COMMUNICATIONS                               Page 22
                      COMMISSION’S FY 2006 FINANCIAL STATEMENTS
LIMITATIONS OF THE FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of
operations of the Commission, pursuant to the requirements of 31 U.S.C. § 3515(b). While the statements
have been prepared from the books and records of the Federal Communications Commission
(Commission) in accordance with generally accepted accounting principles (GAAP) for Federal entities
and the formats prescribed by Office of Management and Budget (OMB), the statements are in addition to
the financial reports used to monitor and control budgetary resources which are prepared from the same
books and records.
The statements should be read with the realization that they are for a component of the United States
(U.S.) Government, a sovereign entity. One implication of this is that liabilities cannot be liquidated
without legislation that provides resources to do so.




                                                                                                    23
This Page Is Intentionally Left Blank




                                        24
PRINCIPAL STATEMENTS

FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED BALANCE SHEET
As of September 30, 2006 and 2005
(Dollars in thousands)
                                                                                     Unaudited
                                                                    FY 2006           FY 2005
ASSETS (Note 2)
 Intragovernmental
   Fund Balance with Treasury (Note 3)                          $      606,696   $     1,522,785
   Investments (Note 5)                                              4,723,516         4,139,945
   Accounts Receivable (Note 6)                                        229,322             4,996
 Total Intragovernmental                                             5,559,534         5,667,726

 Cash and Other Monetary Assets (Note 4)                             3,152,377            57,114
 Accounts Receivable, net (Note 6)                                     933,943           673,493
 Loans Receivable, net (Note 7)                                        149,421         1,257,265
 General Property, Plant, and Equipment, net (Note 9)                   38,156            51,198
 Other                                                                  10,013            10,447

Total Assets                                                    $    9,843,444   $     7,717,243

LIABILITIES (Note 10)
 Intragovernmental
   Debt (Note 11)                                               $      448,997   $     1,273,798
   Other (Note 12)
    Custodial                                                          152,036           222,350
    Other                                                                1,810             1,826
   Total Other                                                         153,846           224,176

 Total Intragovernmental                                               602,843         1,497,974

 Accounts Payable                                                      300,925            74,451
 Other (Note 12)
  Deferred Revenue                                                   3,100,144         1,185,774
  Prepaid Contributions                                                 63,461            57,360
  Deposit/Unapplied Liability                                           41,737             5,232
  Accrued Liabilities for Universal Service                            451,860           418,826
  Telecommunications Development Account (TDA) Interest                 28,623                 1
  Other                                                                 42,130            43,399
 Total Other                                                         3,727,955         1,710,592

Total Liabilities                                               $    4,631,723   $     3,283,017

 Commitments and Contingencies (Note 14)

NET POSITION
 Unexpended Appropriations                                      $            -   $        24,617
 Unexpended Appropriations - Earmarked Funds (Note 23)                       -                 -
 Unexpended Appropriations - Other Funds                                17,843                 -
 Cumulative Results of Operations                                            -         4,409,609
 Cumulative Results of Operations - Earmarked Funds (Note 23)        5,112,001                 -
 Cumulative Results of Operations - Other Funds                         81,877                 -

Total Net Position                                              $    5,211,721   $     4,434,226

Total Liabilities and Net Position                              $    9,843,444   $     7,717,243



                         The accompanying notes are an integral part of these statements.


                                                                                                   25
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2006 and 2005
(Dollars in thousands)
                                                                                       Unaudited
                                                                     FY 2006            FY 2005
       PROGRAM COSTS:
        Broadband:
         Gross costs (Note 15)                                   $       26,795 $           24,692
         Less: Earned Revenue (Note 15)                                 (30,374)           (26,995)
         Net Program Costs                                               (3,579)            (2,303)

        Competition:
         Gross costs (Note 15)                                        7,259,004          6,679,252
         Less: Earned Revenue (Note 15)                                (117,840)          (118,231)
         Net Program Costs                                            7,141,164          6,561,021

        Spectrum:
         Gross costs (Note 15)                                          446,348            503,517
         Less: Earned Revenue (Note 15)                                (248,297)          (489,887)
         Net Program Costs                                              198,051             13,630

        Media:
         Gross costs (Note 15)                                           30,887             30,433
         Less: Earned Revenue (Note 15)                                 (33,584)           (31,887)
         Net Program Costs                                               (2,697)            (1,454)

        Homeland Security:
         Gross costs (Note 15)                                           37,851             35,445
         Less: Earned Revenue (Note 15)                                 (41,196)           (36,953)
         Net Program Costs                                               (3,345)            (1,508)

        Modernize the FCC:
         Gross costs (Note 15)                                           50,228             53,334
         Less: Earned Revenue (Note 15)                                 (54,573)           (54,280)
         Net Program Costs                                               (4,345)              (946)

        Total Net Program Costs                                       7,325,249          6,568,440

        Cost not Assigned to Programs:
         Telecommunications Development Fund                             28,885              1,314
         Other Expenses                                                   4,954               (759)

        Less: Earned Revenues not Attributed to Programs:
         Telecommunications Development Fund                            (28,885)            (1,314)

        Net Cost of Operations                                   $    7,330,203    $     6,567,681



                   The accompanying notes are an integral part of these statements.


                                                                                                      26
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Years Ended September 30, 2006 and 2005
(Dollars in thousands)

                                                                                                                Unaudited
                                                                        FY 2006                                  FY 2005
                                                Consolidated       Consolidated
                                                Earmarked          All Other          Consolidated          Consolidated
                                                Funds              Funds              Total                 Total

Cumulative Results of Operations:
 Beginning Balances                             $     4,276,827    $       132,782    $    4,409,609        $     2,267,478
 Adjustments:
  Changes in accounting principles (Note 24)                  -              9,886             9,886                      -
 Beginning Balance, as adjusted                       4,276,827            142,668         4,419,495              2,267,478

Budgetary Financing Sources:
 Other Adjustments (rescissions, etc.)                        -             (2,463)           (2,463)                (1,095)
 Appropriations Used                                          -            142,847           142,847              1,272,637
 Non-exchange Revenue                                 7,982,384                  -         7,982,384              7,449,284

Other Financing Sources (Non Exchange):
 Transfers in/ out reimbursement                               -           (32,233)          (32,233)               (25,463)
 Imputed financing                                             -            14,068            14,068                 14,449
 Other                                                         -               (17)              (17)                     -

Total Financing Sources                               7,982,384            122,202         8,104,586              8,709,812
Net Cost of Operations                                7,147,210            182,993         7,330,203              6,567,681
Net Change                                              835,174            (60,791)          774,383              2,142,131

Cumulative Results of Operations                      5,112,001             81,877         5,193,878              4,409,609


Unexpended Appropriations:
 Beginning Balances                                            -            24,617            24,617                 38,155
 Adjustments:
   Changes in accounting principles (Note 24)                  -            (9,886)           (9,886)                     -
 Beginning Balance, as adjusted                                -            14,731            14,731                 38,155

Budgetary Financing Sources:
 Appropriations Received                                       -           146,168           146,168               1,260,763
 Other Adjustments                                             -              (209)             (209)                 (1,664)
 Appropriations Used                                           -          (142,847)         (142,847)             (1,272,637)
 Total Budgetary Financing Sources                             -             3,112             3,112                 (13,538)

Total Unexpended Appropriations                                -            17,843            17,843                 24,617

Net Position                                          5,112,001             99,720         5,211,721    -         4,434,226




                          The accompanying notes are an integral part of these statements.




                                                                                                                            27
FEDERAL COMMUNICATIONS COMMISSION
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
(Dollars in thousands)
                                                                                                                    Unaudited
                                                                               FY 2006                               FY 2005

                                                                                   Non Budgetary                            Non Budgetary
                                                                                   Credit Program                           Credit Program
                                                                   Budgetary       Financing Acct          Budgetary        Financing Acct
Budgetary Resources:

Unobligated balance, brought forward, October 1:               $      1,006,367 $           67,196     $        272,571 $            59,507
Recoveries of prior year unpaid obligations                             954,957                -                664,116                 -
Budget authority:
 Appropriations received                                              8,306,644                -               9,899,436                -
 Borrowing authority                                                        -              183,059                   -               38,124
 Spending authority from offsetting collections
   Earned:
     Collected                                                         384,148           1,320,704              416,792           2,981,006
     Change in receivables from Federal sources                             31                 -                   (342)                -
   Change in unfilled customer orders:
     Without advance from Federal sources                                   -                  -                      13                -
   Previously unavailable                                                12,000                -                     -                  -
 Budget authority subtotal                                            8,702,823          1,503,763            10,315,899          3,019,130

Temporarily not available pursuant to Public Law                        (25,300)                -                (12,000)               -
Permanently not available                                                (2,686)         (1,007,860)              (2,742)        (2,705,090)

Total Budgetary Resources                                      $     10,636,161 $          563,099     $      11,237,844 $          373,547

Status of Budgetary Resources:

Obligations incurred: (Note 16)
 Direct                                                        $      8,653,372 $          278,958     $      10,230,118 $          306,351
 Reimbursable                                                             1,778                -                   1,359                -
 Subtotal                                                             8,655,150            278,958            10,231,477            306,351

Unobligated balance:
 Apportioned                                                            155,098                187              217,449                 382
Unobligated balance not available                                     1,825,913            283,954              788,918              66,814

Total, Status of Budgetary Resources                           $     10,636,161 $          563,099     $      11,237,844 $          373,547



Change in Obligated Balance:

Obligated balance, net
 Unpaid Obligations, brought forward, October 1                $      3,265,134 $               -      $       3,085,539 $              -
 Less: Uncollected customer payments from
 Federal sources, brought forward, October 1                                 15                 -                    344                -
 Total unpaid obligated balance, net                                  3,265,119                 -              3,085,195                -

Obligations incurred net (+/-)                                        8,655,150            278,958            10,231,477            306,351
Less: Gross outlays                                                   8,066,684            278,958             9,387,765            306,351
Less: Recoveries of prior year unpaid obligations, actual               954,957                -                 664,116                -
Change in uncollected customer payments from Federal sources                (31)               -                     343                -
Obligated balance, net, end of period
 Unpaid obligations                                                   2,898,642                 -              3,265,134                -
 Less: Uncollected customer payments from
        Federal sources                                                      46                 -                     15                -
 Total, unpaid obligated balance, net, end of period                  2,898,596                 -              3,265,119                -


Net Outlays

Net Outlays:
  Gross outlays                                                $      8,066,684 $           278,958    $       9,387,765 $          306,351
  Less: Offsetting collections                                          384,148           1,320,704              416,792          2,981,006
  Less: Distributed Offsetting receipts (Note 22)                        32,233                 -                 25,463                -
  Net Outlays                                                  $      7,650,303 $        (1,041,746)   $       8,945,510 $       (2,674,655)


                                       The accompanying notes are an integral part of these statements.

                                                                                                                                               28
   FEDERAL COMMUNICATIONS COMMISSION
   CONSOLIDATED STATEMENT OF FINANCING
   For the Years Ended September 30, 2006 and 2005
   (Dollars in thousands)

                                                                                                                                  Unaudited
Resources Used to Finance Activities:                                                                        FY 2006               FY 2005

Budgetary Resources Obligated
 Obligations incurred                                                                                    $       8,934,108    $       10,537,828
 Less: Spending authority from offsetting collections and recoveries                                             2,659,840             4,061,585
 Obligations net of offsetting collections and recoveries                                                        6,274,268             6,476,243
 Less: Offsetting receipts (Note 22)                                                                                32,233                25,463
 Net obligations                                                                                                 6,242,035             6,450,780
Other Resources
 Transfers in/out without reimbursement (+/-) (Note 22)                                                            32,233                25,463
 Imputed financing from costs absorbed by others                                                                   14,068                14,449
 Other (+/-)                                                                                                           17                   -
 Net other resources used to finance activities                                                                    46,318                39,912

Total resources used to finance activities                                                                       6,288,353             6,490,692

Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in budgetary resources obligated for goods, services and benefits
 ordered but not yet provided (+/-)                                                                               (374,883)              168,435
 Resources that fund expenses recognized in prior periods                                                          316,972             1,269,099
 Budgetary offsetting collections and receipts that do not affect net cost of operations
   Credit program collections which increase liabilities for loan guarantees
   or allowances for subsidy                                                                                    (1,320,706)           (3,016,923)
   Other                                                                                                            98,409               350,860
 Resources that finance the acquisition of assets                                                                  404,819             1,137,808
 Other resources or adjustments to net obligated resources that do not affect
 net cost of operations (+/-)                                                                                      23,192                57,786

  Total resources used to finance items not part of the net cost of operations                                    (852,197)              (32,935)

Total resources used to finance the net cost of operations                                                       7,140,550             6,523,627

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
 Increase in annual leave liability                                                                                  (111)                   -
 Upward/Downward reestimates of credit subsidy (+/-)                                                               22,444                (44,224)
 Increase in exchange revenue receivable from the public                                                           (8,370)                 2,957
 Other (+/-)                                                                                                       32,542                 32,205

  Total components of Net Cost of Operations that will require or generate resources in future periods             46,505                 (9,062)

Components not Requiring or Generating Resources:
 Depreciation and Amortization                                                                                     21,712                16,922
 Other (+/-)                                                                                                      121,436                36,194

  Total components of Net Cost of Operations that will not require or generate resources                          143,148                53,116

Total components of Net Cost of Operations that will not require or generate
resources in the current period                                                                                   189,653                44,054

Net Cost of Operations                                                                                   $       7,330,203    $        6,567,681




                                      The accompanying notes are an integral part of these statements.




                                                                                                                                                    29
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CUSTODIAL ACTIVITY
For the Years Ended September 30, 2006 and 2005
(Dollars in thousands)

                                                                                                 Unaudited
                                                                       FY 2006                    FY 2005
Revenue Activity:
 Sources of Cash Collections:
   Spectrum Auctions                                              $           104,471        $          152,355
   Fines and Penalties (Note 25)                                              100,133                    12,435
   Credit Reform                                                              276,311                   269,233
   TDA Interest                                                                28,885                     1,314
 Total Cash Collections                                                       509,800                   435,337

 Accrual Adjustments
  Spectrum Auctions                                                               4,121                   6,132
  Fines and Penalties                                                            20,119                  (1,472)
 Total Accrual Adjustments                                                       24,240                   4,660

Total Custodial Revenue                                                       534,040                   439,997

Disposition of Collections:
 Transferred to Others:
   Recipient A: U.S. Treasury                                                (490,469)                 (441,448)

 (Increase)/Decrease in Amounts Yet to be Transferred                          70,314                    87,780
 Retained by the Reporting Entity                                            (113,885)                  (86,329)

Net Custodial Activity                                            $                 -        $               -




                          The accompanying notes are an integral part of these statements.




                                                                                                                 30
NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS
FOR THE YEARS ENDED SEPTEMBER 30, 2006 AND 2005 (UNAUDITED AS TO FY 2005)
(DOLLARS IN THOUSANDS UNLESS OTHERWISE STATED)


Note 1 - Summary of Significant Accounting Policies

Reporting Entity

The Commission is an independent United States Government agency, established by the
Communications Act (Act) of 1934, as amended. The Commission is charged with regulating interstate
and international communications by radio, television, wire, satellite, and cable. The Commission’s
jurisdiction spans the 50 states, the District of Columbia, and the U.S. possessions. Five commissioners
direct the Commission; they are appointed by the President of the United States and confirmed by the
Senate for five-year terms, except when filling an unexpired term.

The Commission comprises three reporting components. The primary component consists of
Commission headquarters and field offices. The two additional components are the Universal Service
Fund (USF) and the North American Numbering Plan (NANP). The USF reports the results of the four
Universal Service support mechanisms (established pursuant to section 254 of the Act, as amended) and
the results of the Telecommunications Relay Service (TRS) Fund (established by the Americans with
Disabilities Act of 1990, Title IV). The NANP reports the results of billing and collection activities
conducted to support the NANP (47 U.S.C. § 251(e); 47 C.F.R. § 52.16, 52.17, 52.32, and 52.33).

Basis of Accounting and Presentation

The consolidated financial statements (financial statements) have been prepared from the accounting
records of the Commission in conformity with U.S. Federal Generally Accepted Accounting Principles
and the form and content for entity financial statements specified by OMB Circular A -136 “Financial
Reporting Requirements.”

The preparation of financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities, the disclosure of
contingent assets and liabilities at the date of the financial statements, and the reported amounts of
revenues and expenses during the reporting period. Actual results may differ from those estimates.

Fund Balance with Treasury

Funds with the Department of the Treasury (Treasury) primarily represent appropriated, revolving, and
deposit funds. The Commission may use the appropriated and revolving funds to finance expenditures,
depending on budgetary availability. The deposit accounts are used to hold funds temporarily until they
can be properly disbursed or distributed.




                                                                                                       31
Note 1 - Summary of Significant Accounting Policies (continued)

Cash and Other Monetary Assets

Cash and Other Monetary Assets represent cash on deposit and money market funds at several
commercial banks. Cash on deposit is collateralized by the Federal Reserve and typically exceeds
federally insured limits.

Investments

Investments are reported net of the unamortized premium or discount. All investments are in Treasury
securities.

Accounts Receivable, Net

Accounts Receivable consists of claims made for payment from other entities. Gross receivables are
reduced to net realizable value by an allowance for doubtful accounts.

Loans

The Federal Credit Reform Act (FCRA) of 1990, as amended, governs the reporting requirements for
direct loan obligations made after FY 1991. The FCRA requires that the present value of the subsidy
costs associated with direct loans be recognized as a cost in the year that the loan is obligated. (Present
value is calculated as the estimated cash outflows over the life of the loans, less the present value of the
estimated cash inflows, discounted at the interest rate of marketable Treasury securities with a similar
maturity term.) Direct loans are reported net of an allowance for subsidy at the present value.

Property, Plant and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost, including
all costs incurred to bring the PP&E to and from a location suitable for its intended use. All PP&E with
an initial acquisition cost of $25 or more and all internally developed software with a development cost of
$50 or more, and with an estimated useful life of two years or greater, are capitalized. Bulk purchases of
similar items, individually worth less than $25 but collectively worth more than $250, are also capitalized
using the same equipment categories and useful lives as capital acquisitions. PP&E are depreciated on a
straight-line basis over the estimated useful lives of the items. The useful lives used are: forty years for
buildings, seven years for non-computer equipment, five years for computers and vehicles, and three
years for software. Neither land, including permanent improvements, nor software in development is
depreciated. Normal maintenance and repair costs are expensed as incurred.

Leasehold improvements include all costs incurred during the design and construction phase of the
improvement. These costs are amortized over the remaining life of the lease, or the useful life of the
improvements, whichever is shorter.




                                                                                                         32
Note 1 - Summary of Significant Accounting Policies (continued)

Property, Plant and Equipment (continued)

The Commission’s authority relative to seized and forfeited property is cited in 47 U.S.C. § 510. Seized
property consists of personal property and equipment seized from illegal telecommunication operations.
The property is considered prohibited and is held pending an outcome of court proceedings. Forfeited
property consists of seized property turned over to the Commission to be destroyed or disposed of
through a surplus process. The values assigned to the seized and forfeited property are determined by
Commission engineers and are based on current market values for comparable property.

Other Assets

Other Assets represents the balance of transfers less expenses made by the USF to Universal Service
Administration Company (USAC) to fund administrative costs in advance. Advances are drawn down as
expenses are incurred.

Accounts Payable and Accrued Liabilities

Accounts Payable and Accrued Liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. Liabilities are recognized when they are incurred,
regardless of whether they are covered by available budgetary resources. Liabilities cannot be liquidated
without legislation that provides resources to do so. As a component of the U.S. Government, a sovereign
entity, payments of all liabilities other than contracts can be abrogated by the sovereign entity.

Deferred Revenue

The Commission collects proceeds from the sale of communications spectrum on behalf of the U.S.
Government. All proceeds collected up to the amount of the net winning bid are recognized as deferred
revenue until a “prepared to grant” or “grant” public notice is issued. In addition, the Commission
collects multi-year regulatory fees for five- and ten-year periods that are recorded as deferred revenue and
amortized over the period of the fee.

Debt

This account represents amounts due to the U.S. Treasury’s Bureau of Public Debt (BPD) to support the
spectrum auction loans program. Borrowings from BPD are determined based on subsidy estimates and
re-estimates in accordance with the FCRA of 1990, as amended, and OMB guidance. Interest payment on
debt is calculated annually and remitted to BPD at the end of the fiscal year. These payments are recorded
in a receipt account maintained by the Commission.

Retirement Plans and Other Benefits

Federal employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, including pensions, other retirement benefits, and other post-employment benefits. The
Office of Personnel Management (OPM) administers these benefits. The Commission does not recognize
any liability on the Balance Sheet for pensions, other retirement benefits, and other post-employment
benefits. The Commission recognizes and allocates the imputed costs on the Statement of Net Cost and
recognizes imputed financing related to these costs on the Statement of Changes in Net Position.



                                                                                                         33
Note 1 - Summary of Significant Accounting Policies (continued)

Retirement Plans and Other Benefits (continued)

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or other
termination of employment before retirement. Pension plans may also include benefits to survivors and
dependents, and they may contain early retirement or other special features. Most Commission
employees participate in the Civil Service Retirement System (CSRS) or the Federal Employee
Retirement System (FERS). Under CSRS, the Commission makes matching contributions equal to seven
percent of basic pay. For FERS employees, the Commission contributes the employer’s matching share
for Social Security, contributes an amount equal to one percent of employee pay to a savings plan, and
matches up to an additional four percent of pay. Most employees hired after December 31, 1983 are
covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded liabilities, if any,
applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases. The liability is determined
by using historical benefit payment patterns related to a specific incurred period to predict the ultimate
payment related to that period. The Department of Labor determines no actuarial liability for the
Commission, due to the immateriality to the Federal Government as a whole.

Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in
the accrued annual leave account is adjusted to reflect current leave balances and pay rates. Annual leave
is reflected as a liability not covered by current budgetary resources. Sick leave and other types of non-
vested leave are expensed as taken.

Revenue and Other Financing Sources

Regulatory Fee Collections (Exchange) - The Omnibus Budget Reconciliation Act of 1993 directed the
Commission to assess and collect regulatory fees to recover the costs incurred in carrying out certain
provisions of its mission. Section 9(a) of the Act, as amended, authorizes the Commission to assess and
collect annual regulatory fees to recover the costs, as determined annually by Congress, incurred in
carrying out its strategic goals of broadband, competition, spectrum, media, homeland security and
modernizing the Commission. These fees were established by congressional authority, and, consistent
with OMB Circular No. A-25 revised, User Charges, the Commission did not determine the full costs
associated with its regulatory activity in establishing regulatory fees. Since 1993, Congress has annually
reviewed the regulatory fee collection requirements of the Commission and established the total fee levels
to be collected. Fees collected up to the level established by Congress are applied against the
Commission’s annual appropriation at the close of each fiscal year. The regulatory fee levels of $298,771
for FY 2006 and $280,098 for FY 2005 were achieved. The Congress has designated $10,000 of the FY
2006 fees for deposit into Treasury.




                                                                                                         34
Note 1 - Summary of Significant Accounting Policies (continued)

Revenues and Other Financing Sources (continued)

Radio Spectrum Auction Proceeds (Exchange) – In accordance with the provisions of Statement of
Federal Financial Accounting Standards (SFFAS) 7, Accounting for Revenue and Other Financing
Sources, the Commission accounts for this exchange revenue as a custodial activity. Revenue from
spectrum auctions is recognized when a “prepared to grant” or “grant” public notice is issued. The value
of available spectrum is determined by the market place at the time of auction. The Commission
recognized custodial revenue of $108,592 in FY 2006 and $158,487 in FY 2005.

Offsetting Collections (Exchange) – One of the Commission’s primary functions is managing the
spectrum auction program. Proceeds from the auctions are initially remitted to the Commission and are
later transferred to the U.S. Treasury, net of anticipated auction related costs (under 47 U.S.C. § 309, the
Commission may retain a portion of the spectrum auction proceeds to offset the cost of performing the
auction function). Collections used to offset the cost of performing auctions-related activity totaled
$85,000 in FY 2006 and $85,000 in FY 2005.

Application Fees (Exchange) – Congress authorized the Commission (47 U.S.C. § 8) to impose and
collect application processing fees and directed the Commission to prescribe charges for certain types of
application processing or authorization services it provides to communications entities over which the
Commission has jurisdiction. The Commission amends its Schedule of Application Fees (47 C.F.R. §
1.1102 et seq.) to adjust the fees for processing applications and other filings. Section 8(b) of the Act, as
amended, requires the Commission to review and adjust its application fees every two years. The
adjusted or increased fees reflect the net change in the Consumer Price Index for all Urban Consumers
(CPI-U), calculated over a specific period of time. Application fees are deposited in the Treasury and are
not available for the Commission’s use. Application fees collected totaled $22,233 in FY 2006 and
$25,463 in FY 2005.

Reimbursable Work Agreements (Exchange) – The Commission recognizes reimbursable work
agreement revenue when earned, i.e., goods that have been delivered or services rendered. The
Commission executed agreements totaling $1,426 in FY 2006 and $1,372 in FY 2005.

Annual Appropriations (Financing Source) – The Commission receives an annual Salaries and Expenses
appropriation from Congress. These funds are used to pay for operations during the fiscal year and are
repaid to the Treasury once regulatory fees are collected. The annual appropriation for FY 2006 is
$289,758 with regulatory fee collections of $288,771 resulting in a net appropriation of $987. The annual
appropriation for FY 2005 was $281,085 with regulatory fee collections of $280,098 resulting in a net
appropriation of $987.

Subsidy Estimates and Reestimates (Financing Source) – The Commission receives permanent-indefinite
authority for its credit reform program account in accordance with the FCRA of 1990, as amended, to
fund its subsidy estimates and reestimates, unless otherwise prescribed by OMB. This account records
the subsidy costs associated with the direct loans after FY 1991, as well as administrative expenses of the
loan program. The Commission received appropriations of $145,181 in FY 2006 and $1,259,776 in FY
2005 for these purposes. These appropriations are available until used.




                                                                                                          35
Note 1 - Summary of Significant Accounting Policies (continued)

Revenues and Other Financing Sources (continued)

USF (Nonexchange) – Carriers conducting interstate telecommunications are required to contribute a
portion of their revenues to fund the cost of providing universal service. These contributions represent
appropriated dedicated and earmarked receipts and are accounted for as a budgetary financing source.
Contributions and related interest totaled $7,982,384 in FY 2006 and $7,449,284 in FY 2005.

Receipts and Outlays

In reporting the receipts and gross outlays of the TRS, the multiplying effect of processing the redemption
and repurchase of Federal securities through the TRS money market account is reduced. Since money
market funds are classified as non-Federal securities, the receipts are obligated and outlaid at the time of
initial non-Federal investment. When receipts (including interest, dividends, realized gains and proceeds
not immediately reinvested but reported as new receipts) are subsequently re-invested, an obligation and
outlay would be recorded. The Commission has reviewed this practice with the OMB and they are in
agreement that recording each transaction would distort the receipts and gross outlays of the program.
This treatment is also used in the Appropriations Received and Obligations Incurred lines on the SBR and
the Resources that Finance the Acquisition of Assets line on the SOF.

Transactions with Related Parties

The Commission has relationships and conducts financial transactions with numerous Federal agencies,
most prominently the Treasury. In addition to its Federal relationships, the Commission has a direct
relationship with the administrators of those funds that are components under the overall Commission
entity. These organizations are USAC, which administers the four USF support mechanisms, National
Exchange Carrier Association (NECA) which administers the TRS Fund, and Neustar which administers
the NANP. Welch and Company, LLC serves as the Billing and Collection agent for the NANP.

Net Position

Net Position is the residual difference between assets and liabilities and comprises Unexpended
Appropriations and Cumulative Results of Operations. Unexpended Appropriations represents the
amount of unobligated and unexpended budget authority. Unobligated Balance is the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. Cumulative Results of Operations is the net result of the Commission’s
operations since inception.




                                                                                                         36
Note 2 - Non-entity Assets

The following summarizes Non-entity Assets as of September 30, 2006 and 2005:

                                                                   FY 2006                 FY 2005
     Intragovernmental:
         Fund Balance with Treasury                            $    187,221               $ 1,342,976
         Accounts Receivable, Net                                     4,322                     4,996
      Total Intragovernmental                                       191,543                 1,347,972

     Cash and Other Monetary Assets                              3,050,763                        749
     Accounts Receivable, Net                                       46,291                     20,892
     Total Non-entity Assets                                     3,288,597                  1,369,613
     Total Entity Assets                                         6,554,847                  6,347,630
     Total Assets                                              $ 9,843,444                $ 7,717,243

Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum auction
winning bids. These deposits accounted for $175,948 in FY 2006 and $1,337,550 in FY 2005. Non-
entity Cash and Other Monetary Assets also consist of deposits made by spectrum auction bidders that are
held outside of Treasury. Receivables considered non-entity are for regulatory fees, application fees,
fines and forfeitures, spectrum auction receivables, and International Telecommunications Settlement
(ITS) charges.

Note 3 - Fund Balance with Treasury

The following summarizes Fund Balance with Treasury as of September 30, 2006 and 2005:
September 30, 2006
                                       Appropriated
                                         Funds        Revolving Funds    Deposit Funds        Total

Unobligated Budgetary Resources
 Available                             $     27,928   $        284,142   $           -    $    312,070
 Unavailable                                 27,684                  -         187,221         214,905
Obligated Balance not yet Disbursed          79,721                  -               -          79,721
Total                                  $    135,333   $        284,142   $     187,221    $    606,696



September 30, 2005
                                       Appropriated
                                         Funds        Revolving Funds    Deposit Funds        Total

Unobligated Budgetary Resources
 Available                             $     31,234   $         67,196   $            -   $      98,430
 Unavailable                                  8,331                  -        1,342,976       1,351,307
Obligated Balance not yet Disbursed          73,048                  -                -          73,048
Total                                  $    112,613   $         67,196   $    1,342,976   $   1,522,785




                                                                                                        37
Note 3 - Fund Balance with Treasury (continued)

Appropriated Funds – Includes the salaries and expense appropriation used to fund agency operations, the
auction and reimbursable accounts, the no-year accounts used to carry over spectrum auction and
regulatory fee funds, and the credit reform program account.
Revolving Funds – Includes the credit reform financing account used to record cash flows associated with
the Commission’s spectrum auction loan program.

Deposit Funds – Includes monies being held for spectrum auctions, International Telecommunications
Settlement (ITS), and regulatory fees. Deposit funds are not available for use by the Commission unless
they are properly identified or reclassified as Commission funds. Otherwise, these funds are returned to
the depositor or transferred to the Treasury.

Note 4 – Cash and Other Monetary Assets

The following summarizes Cash and Other Monetary Assets as of September 30, 2006 and 2005:

                                           FY 2006                   FY 2005

Cash and Cash Equivalents                $ 3,152,377             $    57,114

USF and NANP contributions and third party deposits made pursuant to spectrum auction activities are
the source of funds for these balances. Third-party deposits, unless refunded, are held until 45 days after
the close of a given auction and then transferred to the Commission’s Treasury account. Interest earned
on cash
and other monetary assets is reinvested, with the exception of interest earned on third-party deposits,
which is transferred to the Telecommunications Development Fund (TDF).

In FY 2006 Cash and Other Monetary Assets included $3,050,763 in deposits or related accrued interest
being held for spectrum auctions, $96,203 in USF contributions and related accrued interest being held
for distribution, and $5,411 in NANP deposits and related accrued interest.

In FY 2005 Cash and Other Monetary Assets included $749 in deposits and related accrued interest being
held for spectrum auctions, $48,150 in USF contributions and related accrued interest being held for
distribution, and $8,215 in NANP deposits and related accrued interest.




                                                                                                        38
Note 5 - Investments

The following summarizes Investments as of September 30, 2006 and 2005:

                                                    Unamortized            Market
                                       Amortization (Premium) Investments, Value
FY 2006                            Cost Method        Discount    Net     Disclosure
Intragovernmental Securities:

    Marketable Securities:
    Treasury Bills               $3,285,930   EI     $   46,197 $ 3,332,127 $3,287,848
    Treasury Notes                1,422,545   EI          7,506   1,430,051 1,422,752
    Accrued Interest                 15,041   NA                     15,041     15,041
    Total                        $4,723,516                     $ 4,777,219 $4,725,641


FY 2005
Intragovernmental Securities:

    Marketable Securities:
    Treasury Bills               $4,119,760   EI     $ 17,094     $ 4,136,854 $ 4,121,516
    Treasury Notes                   19,996   EI           4           20,000       19,803
    Accrued Interest                    189   NA                          189          189
    Total                        $4,139,945                        $ 4,157,043 $ 4,141,508

EI – Effective Interest Method
NA – Not Applicable

All Treasury securities, regardless of the maturity date, are reported as investments. The Commission
expects to hold all investments to maturity; therefore, no adjustments have been made to present market
values. All investments are held by USF and are also recognized as part of earmarked funds in Note 23.

The USF had two Treasury Bills for $225,000 that matured on September 30, 2006, but did not settle until
October 2, 2006. These securities were reclassified out of investments and into intragovernmental
accounts receivable at September 30, 2006. In addition, two new Treasury Bills for $225,000 were
purchased on September 29, 2006, but did not settle until October 2, 2006. These transactions were
recorded as intragovernmental investments with corresponding accounts payable at September 30, 2006.




                                                                                                     39
Note 6 - Accounts Receivable, Net

The following summarizes Accounts Receivable, Net as of September 30, 2006 and 2005:

                                         Intragovernmental                 Public                Total
FY 2006
 Gross Accounts Receivable                    $ 229,322            $ 1,630,380               $ 1,859,702
 Allowance for Doubtful Accounts              (       -)           (   696,437)              (   696,437)
Net Accounts Receivable                       $ 229,322            $   933,943               $ 1,163,265

Interest on Delinquent AR                     $         -          $          45,856         $       45,856

FY 2005
 Gross Accounts Receivable                    $    4,996           $        1,369,248        $ 1,374,244
 Allowance for Doubtful Accounts              (        -)              (      695,755)           (
                                                                                                 695,755)
Net Accounts Receivable                       $    4,996           $          673,493        $   678,489

Interest on Delinquent AR                     $         -          $          45,856         $       45,856

Accounts receivable are recorded net of any related allowance for doubtful accounts. The Commission’s
portion is determined by applying predetermined percentages against the respective date the receivable
was established. The current formula for the Commission’s allowance is 25% for receivables 91-180
days outstanding, 75% for those 181-365 days outstanding, and 100% for anything greater than 365 days
outstanding. An additional analysis of higher dollar value receivables is also performed on individual
account balances. The USF portion is determined by calculating an estimated general allowance for
doubtful accounts receivable, and reserving 100% for known bankruptcy and inactive accounts. The
general allowance is calculated by multiplying the aged billing amounts by the percentage of the monthly
delinquent accounts receivable over the monthly billing amounts.

A 100% allowance is also made for all Notice of Apparent Liabilities (NAL) receivables and 75%
allowance is made for all Commitment Adjustment (COMAD) audit receivables. The NAL receivables
represent notifications of a forfeiture, subject to final determination. While these receivables are included
on the Treasury Report on Receivables at the request of Treasury, the ability to collect these receivables is
not determined until a final judgment is issued. Similarly, the COMAD audit receivables represent
preliminary audit findings that are subject to appeal by the auditee and are not considered final until the
appeals period has lapsed or a final determination has been issued.

                                      FY 2006                                            FY 2005

                       Accounts                                      Accounts
                      Receivable     Allowance          Net         Receivable           Allowance          Net

USF                  $ 1,289,171     $ (191,279)   $ 1,097,892     $   843,931           $ (191,390)     $ 652,541
COMAD                     58,612        (43,959)        14,653          59,981              (59,981)             -
Regulatory Fees           32,866        (18,325)        14,541          24,207              (13,423)        10,784
Spectrum Auction         416,624       (406,325)        10,299         408,969             (402,791)         6,178
Forfeitures               48,692        (29,873)        18,819          24,798              (23,661)         1,137
Other                     13,737         (6,676)         7,061          12,358               (4,509)         7,849
Total                $ 1,859,702     $ (696,437)   $ 1,163,265     $ 1,374,244           $ (695,755)     $ 678,489



                                                                                                                  40
Note 7 – Loans Receivable, Net

Under section 309(j)(3) of the Act, as amended, Congress directed the Commission to implement a
competitive bidding (auctions) system for licensing spectrum to expand economic opportunity, promote
competition, and facilitate the development and delivery of new and improved telecommunications
services to the public. Section 309(j)(4) of the Act gave the Commission certain instructions for
implementing regulations for this system, including a directive to ensure that small businesses, rural
telephone companies, and women and minority-owned businesses have an opportunity to participate in
providing spectrum-based services. The Commission can use various means to facilitate expanded
participation, including alternative payment schedules, tax certificates, bidding preferences, and other
procedures.

To address the mandate, the Commission provided installment financing in connection with its spectrum
auction events, including the C Block Broadband Personal Communications Services (PCS), F Block
PCS, Narrowband PCS, Interactive Video and Data Service (IVDS), Multichannel Distribution Service
(MDS), and 900MHz Specialized Mobile Radio (SMR). Under the installment financing program,
winning bidders were generally given five or ten years to repay their net winning bid amount (less the
down payment), with up to five-year, interest-only initial payment periods. Interest rates varied by the
type of borrower. Retention of licenses granted at auction was strictly conditioned on making full and
timely payment of amounts as they become due. The return or repossession of auctioned licenses, which
may have previously been associated with installment payment plans, does not directly or immediately
affect the amount of the outstanding debt recorded in the agency’s financial records. Outstanding debt
adjustments are subject to a separate process.

The Commission’s first auction was conducted in 1994, and starting in 1995 installment payment
mechanisms were used to finance portions of some winning bids. The last active loan will mature in FY
2009. The Commission’s installment loan portfolio is tracked under ten cohorts.

As required under the FCRA of 1990, as amended, the Commission coordinates with the OMB in
developing estimation guidelines, regulations, and the criteria used in calculating the subsidy estimates
and reestimates.

The most recent subsidy reestimate was completed in August 2006 for actual performance data through
May 31, 2006 and estimated data from June through September, 2006. The reestimate resulted in a net
upward adjustment, including interest on the reestimate, of $22,444 reported in the FY 2006 financial
statements.

Direct Loans

                        Loans                                           Allowance for    Value of
                        Receivable,     Interest        Other           Subsidy Cost      Assets Related
Loan Program            Gross           Receivable      Receivables    (Present Value) to Direct Loans
Spectrum Auctions:
   FY 2006 Bal.         $ 427,581       $   33,400      $    1,926      $   (313,486)     $    149,421

    FY 2005 Bal.        $ 471,917       $   33,989      $    1,987      $    749,372      $ 1,257,265

Interest accrued on bankrupt and defaulted loans totaled $33,230 in FY 2006 and $33,281 in FY 2005.




                                                                                                      41
Note 7 – Loans Receivable, Net (continued)

Total Amount of Direct Loans Disbursed

No new loans were issued in FY 2006 and 2005.

Subsidy Expense for Direct Loans by Program and Component

1. Direct Loan Modifications and Reestimates:
                                         Interest Rate         Technical              Total
   Loan Program       Modifications      Reestimates           Reestimates            Reestimates
   Spectrum Auctions

   FY 2006 (Net)       $         -         $       -           $      11,328          $       11,328

   FY 2005 (Net)       $         -         $       -           $     (24,501)         $   (24,501)


Schedule for Reconciling Subsidy Cost Allowance Balances


                                                          FY 2006                 FY 2005
Beginning Balance of the Subsidy Cost Allowance          $ (749,372)            $ 3,831,651

Adjustments:
       Recoveries                                              1,083,346          1,027,251
       Loans written off                                                -        (5,470,721)
       Subsidy allowance amortization                             (42,932)         (113,078)
       Other                                                       11,116                26
Ending balance before reestimates                                302,158           (724,871)

Subsidy reestimates:
       Technical/default reestimate                                 11,328           (24,501)

Ending balance of the subsidy cost allowance               $       313,486      $ (749,372)

Administrative Expense                                         FY 2006              FY 2005

   Spectrum Auctions                                     $           5,212      $     24,269




                                                                                                       42
Note 8 – Seized and Forfeited Property

The Commission seizes property from illegally operated radio and other communication operations. The
property is comprised of radio frequency, audio, and other communications equipment. Forfeited
property consists of seized property legally turned over to the Commission. Although seized and forfeited
property cannot be sold due to legal restrictions, and is not recognized for financial purposes, the quantity
and value of seized and forfeited property is reported below. The property is tracked using the lot number
assigned when seized. The following summarizes Seized and Forfeited Property as of September 30,
2006 and 2005:
                                 FY 2006                           FY 2005
                            No. of         Dollar          No. of          Dollar
                            Lots           Value           Lots            Value
Seized Property
Beginning Balance            38           $ 88               40            $ 92
Seized                        -                  -             2                12
Forfeited                   (12)              (14)            (4)              (16)
Ending Balance               26           $ 74               38            $ 88


                                FY 2006                            FY 2005
                           No. of       Dollar            No. of             Dollar
                           Lots         Value             Lots               Value
Forfeited Property
Beginning Balance           11           $  10             14                $ 10
Forfeited                   12              14               4                  16
Disposed                   (14)            (16)             (7)                (16)
Ending Balance               9           $   8              11               $ 10

Note 9 - General Property, Plant and Equipment, Net

The following summarizes General PP&E as of September 30, 2006 and 2005:
                              FY 2006                           FY 2005        .
                                Accum. Net Book                 Accum. Net Book Estimated
Major Classes         Cost       Deprec.    Value       Cost Deprec.     Value   Useful Life
Land              $ 1,443 $            - $ 1,443 $ 1,443 $            - $ 1,443     N/A
Buildings             5,493        3,986     1,507       5,493    3,941   1,552     40
Non-Computer
Equipment            36,852       33,288     3,564     37,493 32,356      5,137     7
Computer
Equipment            34,042       22,929    11,113     28,613 18,694      9,919     5
Vehicle Systems       5,158        3,458     1,700       4,380    3,306   1,074     5
Leasehold
Improvements          3,108          881     2,227       3,108      570   2,538     10
ADP Software         66,322       51,581    14,741     45,919 37,420      8,499     3
Software
in Development        1,861            -     1,861     21,036         -  21,036     N/A

Total                $ 154,279    $ 116,123    $ 38,156     $147,485 $ 96,287 $ 51,198

Equipment being held by Commission component entities totaled $1,560 in FY 2006 and $2,094 in FY
2005. All asset classes are depreciated on a straight-line basis.

                                                                                                          43
Note 10 - Liabilities Not Covered by Budgetary Resources

The following summarizes Liabilities Not Covered by Budgetary Resources September 30, 2006 and
2005:
                                                              FY 2006            FY 2005
        Intragovernmental:
             Other:
                FECA Liability                              $      403         $       457

       Other:
                Unfunded Leave                                        16,941             17,052
                Accrued Liabilities for Universal Service            451,860            418,826
       Total liabilities not covered by budgetary resources          469,204            436,335
       Total liabilities covered by budgetary resources            4,162,519          2,846,682
       Total Liabilities                                         $ 4,631,723        $ 3,283,017

The Federal Employees Compensation Act (FECA) liability represents the amount of bills received by the
Department of Labor for worker’s compensation. These bills are received one year in advance of when
they are due and are not funded until the subsequent fiscal year.

Unfunded Leave is funded at the time the leave is taken, and is therefore not funded with current year
budgetary resources.

Note 11 - Debt

                               FY 2005                        FY 2005                  FY 2006
                              Beginning         Net           Ending      Net          Ending
                               Balance        Borrowing       Balance   Borrowing      Balance

Debt to the Treasury           $ 3,940,764   $ (2,666,966)    $ 1,273,798 $ (824,801) $ 448,997

The Commission borrows from the Treasury for costs associated with its spectrum auction loan program.
Borrowings, pertaining to all loan cohorts, are determined by calculating the subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended.




                                                                                                   44
Note 12 - Other Liabilities

The following summarizes Other Liabilities as of September 30, 2006 and 2005:

FY 2006                                     Non-Current         Current             Total
Intragovernmental
      Custodial Liability                   $         -     $     152,036       $   152,036
      Other:
             Accrued Payroll                          -             1,378             1,378
             FECA Liability                           -               403               403
             Other                                    -                29                29
             Total Other                              -             1,810             1,810
Total Intragovernmental                     $         -     $     153,846       $   153,846

Deferred Revenue                            $    17,874     $   3,082,270       $ 3,100,144
Prepaid Contributions                                 -            63,461            63,461
Deposit/ Unapplied Liability                          -            41,737            41,737
Accrued Liabilities for Universal Service             -           451,860           451,860
TDA Interest                                          -            28,623            28,623
Other:
            Accrued Payroll                           -             7,332             7,332
            Unfunded Leave                            -            16,941            16,941
            Other                                     -            17,857            17,857
Total Other                                           -            42,130            42,130
Total Other Public                          $    17,874     $   3,710,081       $ 3,727,955


FY 2005                                     Non-Current         Current             Total
Intragovernmental
      Custodial Liability                   $         -     $     222,350       $   222,350
      Other:
             Accrued Payroll                          -             1,339             1,339
             FECA Liability                           -               457               457
             Other                                    -                30                30
             Total Other                              -             1,826             1,826
Total Intragovernmental                     $         -     $     224,176       $   224,176

Deferred Revenue                            $    18,135     $   1,167,639       $ 1,185,774
Prepaid Contributions                                 -            57,360            57,360
Deposit/ Unapplied Liability                          -             5,232             5,232
Accrued Liabilities for Universal Service             -           418,826           418,826
TDA Interest                                          -                 1                 1
Other:
            Accrued Payroll                           -             7,009             7,009
            Unfunded Leave                            -            17,052            17,052
            Other                                     -            19,338            19,338
Total Other                                           -            43,399            43,399
Total Other Public                          $    18,135     $   1,692,457       $ 1,710,592




                                                                                              45
Note 12 - Other Liabilities (continued)

The Custodial Liability includes both cash collected and receivables being held for transfer to the
Treasury’s General Fund. The Commission collects the following types of custodial revenue: spectrum
auction revenue, fines and forfeitures revenue, penalty revenue on regulatory fees, ITS processing fees,
and interest revenue on auction deposits (held for TDF). Deferred revenue represents regulatory fees,
spectrum auction revenue, or contributor payments that have been received but not earned by the
Commission.

Deposit/Unapplied Liability represents upfront deposits made by auction bidders as well as funds
received that are being held until proper application is determined. Prepaid Contributions include
contribution overpayments that may be refunded and USF contributions paid in advance that will be
drawn down during the year. Accrued Liabilities for Universal Service represent liabilities recorded by
the USF for anticipated subsidies in the High Cost, Low Income, and TRS programs. The obligation for
these subsidies is not recognized until payment files are approved in the subsequent month.

Note 13 - Leases

Operating Leases

The Commission has operating leases for rental of office space and office equipment. The copier lease
arrangements are renewable annually with five possible annual renewal periods. As a Federal agency, the
Commission is not liable for any lease terms beyond one year. The Commission anticipates that space
levels consistent with FY 2006 will be required for the next five years and has estimated space and copier
payments consistent with the schedule below. No estimates beyond five years have been provided
because of the cancelable nature of the agreements.

Anticipated lease requirements are as follows:

        Fiscal Year                   Building               Copier               Total
            2007                    $     39,898            $ 1,419              $ 41,317
            2008                          40,780              1,419                42,199
            2009                          41,684              1,419                43,103
            2010                          42,608              1,419                44,027
            2011                          43,348              1,419                44,767
    Total Future Lease Payment       $ 208,318              $ 7,095              $215,413

Note 14 - Commitments and Contingencies

The Commission, USAC, and the Department of Justice are investigating several cases and prosecuting
others related to disbursements of USF funds from the schools and libraries program, which might result
in future proceedings or actions. The complexity of these actions precludes management from estimating
the total amount of recovery that may result from these actions.

The Commission is a party in various administrative proceedings, legal actions, and claims brought by or
against the agency. In addition, several ongoing bankruptcy proceedings are related to the loan portfolio.
In the opinion of Commission management, the ultimate resolution of proceedings, actions and claims
will not materially affect the Commission’s financial position or results of operations.

The Commission has examined its obligations related to cancelled authority and believes it has no
outstanding commitments requiring future resources.

                                                                                                       46
Note 15 – Intragovernmental Costs and Exchange Revenue

Intragovernmental costs primarily represent interest expense paid by the Commission on outstanding
credit reform borrowing. Additional amounts are also recognized for goods and services purchased by the
Commission from other Federal agencies


Program Costs - FY 2006
                Program                 Intragovernmental        Public               Total
Broadband                               $           7,179   $          19,616   $            26,795
Competition                                        28,049           7,230,955             7,259,004
Spectrum                                          128,091             318,257               446,348
Media                                               7,966              22,921                30,887
Homeland Security                                  10,197              27,654                37,851
Modernize the FCC                                  11,973              38,255                50,228
Total                                   $         193,455   $       7,657,658   $         7,851,113

Program Earned Revenue - FY 2006
               Program                  Intragovernmental        Public               Total
Broadband                               $             -     $         30,374    $              30,374
Competition                                           -              117,840                  117,840
Spectrum                                           53,499            194,798                  248,297
Media                                                 -               33,584                   33,584
Homeland Security                                   1,037             40,159                   41,196
Modernize the FCC                                     -               54,573                   54,573
Total                                   $          54,536   $        471,328    $             525,864

Program Costs - FY 2005
                Program                 Intragovernmental        Public               Total
Broadband                               $           6,792   $          17,900   $            24,692
Competition                                        29,987           6,649,265             6,679,252
Spectrum                                          316,376             187,141               503,517
Media                                               8,328              22,105                30,433
Homeland Security                                   9,765              25,680                35,445
Modernize the FCC                                  13,023              40,311                53,334
Total                                   $         384,271   $       6,942,402   $         7,326,673

Program Earned Revenue - FY 2005
               Program                  Intragovernmental        Public               Total
Broadband                                               -   $         26,995    $              26,995
Competition                                             -            118,231                  118,231
Spectrum                                          102,729            387,158                  489,887
Media                                                   -             31,887                   31,887
Homeland Security                                     990             35,963                   36,953
Modernize the FCC                                       -             54,280                   54,280
Total                                   $         103,719   $        654,514    $             758,233




                                                                                                        47
Note 16 - Apportionment Categories of Obligations Incurred

The following summarizes Apportionment Categories of Obligations Incurred September 30, 2006 and
2005:

                                              FY 2006                            FY 2005
                                        Budgetary   Non-Budgetary         Budgetary   Non-Budgetary
Direct
     Category A                $           372,116    $           -       $   365,848 $                -
     Category B                            142,232          278,958         9,864,270            306,351
     Exempt from Apportionment           8,139,024                -                 -                  -
Total Direct                   $         8,653,372    $     278,958       $10,230,118 $          306,351

Reimbursable
     Category A                     $        1,778    $             -     $      1,359 $                -
     Category B                                  -                  -                 -                -
Total Reimbursable                  $        1,778    $             -     $      1,359 $                -


Category A – Apportioned by Quarter
Category B – Apportioned by Purpose

Note 17 - Available Borrowing/Contract Authority, End of Period

The Commission receives borrowing authority consistent with the FCRA of 1990, as amended. The
borrowing is authorized through an indefinite permanent authority at interest rates the Treasury sets each
year. In addition, the Commission has permanent indefinite authority for subsidizing the spectrum
auction direct loan program.

All borrowings are from the BPD. In accordance with applicable standards, all funds are borrowed at the
beginning of the period. Therefore, the Commission does not carry over any unused borrowing authority.
Repayments of borrowings are made in accordance with the terms of the FCRA of 1990, as amended.
Financing sources for repayment are collections from borrowers or subsidy. The Commission had no
borrowing authority at September 30, 2006.

Note 18 - Terms of Borrowing Authority Used

The Commission has three types of financing sources: loan payments made by the public, interest from
the Treasury, and subsidy expenses received from the Treasury. The FCRA of 1990 stipulates that the
rate used for subsidy calculations, borrowings, and interest on uninvested funds must be for a maturity
comparable to the maturity of the direct loans made to the public. The majority of the Commission’s
direct loans have a maturity of ten years.




                                                                                                       48
Note 19 – Legal Arrangements Affecting Use of Unobligated Balances

The Commission may carry forward regulatory fees received for use in the next fiscal year, subject to
notification of the congressional appropriations subcommittees. All other no-year unobligated balances
are available at the start of the next fiscal year, following apportionment by the OMB.

Note 20 - Explanation of Differences Between the Statement of Budgetary Resources (SBR) and the
Budget of the U.S. Government

The schedule below presents differences for FY 2005. The Budget of the United States Government with
actual numbers for FY 2006 has not been published. Pursuant to 31 USC § 1105, the Budget of the
United States Government will be released the first Monday in February, and will be available at the
following website: http:/www.whitehouse.gov/omb.

                                                  Combined Statement    President’s
                                                 of Budgetary Resources  Budget
Budgetary Resources ($ in millions):                      2005            2005        Difference

    Unobligated Balance, Brought Forward, Oct. 1       $    332       $     310       $      22     A
    Recoveries of Prior Year Unpaid Obligations             664             662               2     B
    Budget Authority:
        Appropriations Received                           9,900            9,900               -
        Borrowing Authority                                  38               38               -
        Spending Authority From Offsetting Collections    3,397              680           2,717    C
    Temporarily Not Available Pursuant to Public Law        (12)               -             (12)   D
    Permanently Not Available                            (2,708)               -          (2,708)   E
    Total Budgetary Resources                            11,611           11,590              21

Status of Budgetary Resources ($ in millions):

    Obligations Incurred                                 $ 10,537     $ 10,537        $       -
    Unobligated Balances – Available                          218        1,053             (835)    F
    Unobligated Balances – Not Available                      856             -             856     F
    Total, Status of Budgetary Resources                   11,611       11,590               21

Change in Obligated Balance ($ in millions):

    Obligated balance, net – Beginning of Period         $ 3,085      $ 3,085         $       -
    Obligations, Incurred net (+/-)                       10,537       10,537                 -
    Less: Gross Outlays                                    9,695        9,695                 -
    Less: Recoveries of PY unpaid obligations, actual        664          662                 2     B
    Change in Uncollected Customer Payments From
    Obligated Balance, net, End of Period (calculated)     3,263          3,265               (2)

Net Outlays ($ in millions):

    Gross Outlays                                        $ 9,695      $ 9,695                 -
    Less: Offsetting Collections                           3,397        3,397                 -
    Less: Distributed Offsetting Receipts                     25           25                 -
    Net Outlays                                          $ 6,273      $ 6,273         $       -


                                                                                                        49
Note 20 - Explanation of Differences Between the Statement of Budgetary Resources and the
Budget of the U.S. Government (continued)

A –The President's Budget (the Budget) excludes $22 million in unobligated balances - unavailable
because the funds are not available for use.

B – The Budget does not include $2 million of recoveries in single year appropriations because the funds
are expired and not available for use.

C – The President's Budget recognizes the temporary reduction in authority related to FY 2004 excess
regulatory fees of $12 million as a reduction to offsetting collections while the SBR reflects this amount
on a separate line. The remaining $2,705 represents the Commission's Debt repayment to Treasury which
is also a reduction to offsetting collections in the Budget but shown separately under Permanently Not
Available on the SBR.

D – See explanation for excess regulatory fees under C.

E – The Budget does not include cancelled and other returned authority of $3 million and reflects the
Debt repayment to Treasury of $2,705 million as part of offsetting collections (see explanation C).

F – The unapportioned balances for the USF and the Financing Account, $768 and $67 respectively, are
reflected in the SBR as “not available while the Budget reflects these funds as available.” These funds do
become available to the Commission at the start of each fiscal year. These funds account for all of the
available variance and $835 of the not available variance. The remaining $21 is accounted for by the
combination of explanation A through E above.

Note 21 - Explanation of the Relationship Between Liabilities Not Covered by Budgetary Resources
on the Balance Sheet and the Change in Components Requiring or Generating Resources in Future
Periods

Two amounts are shown in Note 10 as not covered by budgetary resources: FECA Liability and
Unfunded Leave. The changes in both of these balances between FY 2006 and FY 2005 are reflected as
part of Components Requiring or Generating Resources in Future Periods on the Statement of Financing.
The decrease in unfunded leave of $111 is included in the increase in Annual Leave line on the Statement
of Financing, and the decrease in FECA Liability of $54 is included as part of the Resources that fund
expenses recognized in prior periods line item.

Note 22 - Description of Transfers that Appear as a Reconciling Item on the Statement of Financing

The Commission collects application fees to cover the cost of processing license applications. The
Commission reports the revenue associated with these fees as a revenue source on its Statement of Net
Cost, but does not retain the fees. Additionally, the Commission collected $10,000 in off-setting
collections in FY 2006 at the request of Congress which has been recorded in the same receipt account
with application fees. To reflect the transfer of these fees to the Treasury, the Commission recognizes a
transfer out on the Statement of Changes in Net Position. The amount of $32,233 included in the
Offsetting Receipts line on the Statement of Financing is the total transferred for FY 2006.




                                                                                                       50
Note 23 – Earmarked Funds

U.S. telecommunications companies are obligated to pay assessments for Universal Service support and
for Telecommunications Relay Service, established by the Commission. These assessments are
accounted for in the Budget of the U.S. Government as the “Universal Service Fund.” The Commission
currently recognizes the assessments collected under the USF Program as non-exchange revenue on its
Statement of Changes in Net Position, and the related disbursements as program expenses on the
Statement of Net Cost.

The following summarizes the significant assets, liabilities, and related costs incurred with managing the
USF Program.
                                              Total Earmarked
                                                   Funds
Balance Sheet as of September 30, 2006
ASSETS
Investments                                   $     4,723,516
Cash and Other Monetary Assets                         96,203
Acounts Receivable, net                             1,120,982
General Property, Plant, and Equipment, net             1,540
Other Assets                                           10,013
  Total Assets                                $     5,952,254

Accounts Payable                              $      294,116
Deferred Revenue                                      30,920
Prepaid Contributions                                 63,357
Accrued Liabilities                                  451,860
Total Liabilities                             $      840,253

Unexpended Appropriations                     $             -
Cumulative Results of Operations                    5,112,001

 Total Liabilities and Net Position           $     5,952,254

Statement of Net Cost For the Period
Ended September 30, 2006
Gross Program Costs                           $     7,147,210
Less Earned Revenues                                        -
Net Cost of Operations                        $     7,147,210

Statement of Changes in Net Position
For the Period Ended September 30, 2006
Net Position Beginning of Period              $     4,276,827

Non-Exchange Revenue                                7,982,384
Other Financing Sources                                     -
Net Cost of Operations                              7,147,210
Change in Net Position                                835,174

Net Position End of Period                    $     5,112,001


                                                                                                       51
Note 23 – Earmarked Funds (continued)

Administrative costs are expenses related to managing and overseeing the USF Program. The USF
Program is charged administrative expenses by the USAC and the NECA for expenses such as salaries
and benefits of the employees dedicated to managing the universal service support mechanisms and the
telecommunications relay services mechanism; rent and utilities for office space used; providing
accounting and other financial reporting related services; and other miscellaneous activities.

Note 24 – Change in Accounting Principles

In FY 2006 the Commission adopted a change in the method it uses to account for expenditures against
Salaries & Expenses (S&E) funding. The S&E funding represents a combination of offsetting collections
and congressional appropriations. In previous years, the Commission has recognized expenses incurred
in its S&E fund as coming first from offsetting collections and second from appropriations. This
accounting treatment was elected because unexpended S&E funds were recorded under a single year
Treasury Account Fund Symbol and were cancelled and returned at the end of the fifth year after
availability. To mirror the cancellation process which is generally associated with appropriations, the
Commission elected to spend against appropriations last so that the cancellation of funding was against
appropriations.

Since the adoption of the initial accounting method, the portion of Commission operations funded by
offsetting collections has grown to the point where only a net of $1,000 in appropriations is received by
the Commission annually. Additionally, offsetting collections represents funding that remains available
to the Commission until expended. Given these factors, it was preferable to the Commission to change its
method of accounting to reverse the order in which it applies funding so that funding would come first
from appropriations and then from offsetting collections.

The change has a beginning balance impact of $9,886 on the following balances:

Statement of Changes in Net Position:

                                                     Before                           After

Unexpended Appropriations                        $    24,617                       $    14,731
Cumulative Results of Operations                 $ 4,409,609                       $ 4,419,495

Note 25 – Custodial Fines and Penalties Collections

The unusual increase in Fines and Penalties cash collections resulted from the collection of a single
settlement payment totaling $94,866.

Note 26 – Comparability of the Statements

Balance Sheet

The Commission listed TDA Interest as a separate line on the face of the Consolidated Balance Sheet,
since it was a material balance in FY 2006. For comparability purposes the amount was broken out of
Other Liabilities for FY 2005.




                                                                                                        52
Note 26 – Comparability of the Statements (continued)

Statement of Budgetary Resources
The presentation used for the Statement of Budgetary Resources (SBR) prior to FY 2006 has been revised
to reflect a new format required pursuant to the OMB Circular A-136, “Financial Reporting
Requirements.” Circular A-136 requires agencies to present both the FY 2006 and 2005 SBR in the same
format. Accordingly, certain reclassifications were made to the previously issued FY 2005 SBR to
conform to the new format.




                                                                                                   53
This Page Is Intentionally Left Blank




                                        54
REQUIRED SUPPLEMENTARY INFORMATION

REQUIRED SUPPLEMENTARY INFORMATION - DEFERRED MAINTENANCE
As of September 30, 2006
(Dollars in thousands)

To determine the original estimated cost of deferred maintenance in FY 2000, the Commission contracted
with professional building inspectors to inspect its real property holdings, including buildings and
structures. In most cases the inspection reports were comprehensive reviews of the buildings and ground
conditions and included all items that required attention, whether critical to the functionality of the
building or a cosmetic feature. Each year, the Commission updates the report from the previous year for
items completed and newly identified projects. The estimated deferred maintenance for FY 2006 is
$1,413.




                                                                                                    55
REQUIRED SUPPLEMENTARY INFORMATION – STATEMENT OF
BUDGETARY RESOURCES
For the Year Ended September 30, 2006
(Dollars in thousands)

STATEMENT OF BUDGETARY RESOURCES

The Office of Management and Budget (OMB) Bulletin No. 01-09, Form and Content of Federal Agency Financial Statements, requires additional

disclosure of an entity's budgetary information by major budgetary account if the information was aggregated for presentation purposes on the

Statement of Budgetary Resources. The major budget accounts include the FCCand the Universal Service Fund. Reflected in the chart beloware the

major accounts of the FCC that are aggregated and presented in the September 30, 2006 Combined Statement of Budgetary Resources.


FY2006                                                               S&E            Credit      Auctions          USF               Total
Budgetary Resources:

Unobligated balances - brought forward, October 1:               $  18,805 $ 72,145 $ 3,798 $      978,815 $ 1,073,563
Recoveries of prior year unpaid obligations                          3,595           1     917 $   950,444      954,957
Budget authority:                                                  312,179   1,648,945  84,999   8,160,463   10,206,586
Temporarily not available pursuant to Public Law                   (25,300)          -       -           -      (25,300)
Permanently not available                                             (258) (1,007,860) (2,428)          -   (1,010,546)
Total budgetary resources                                        $ 309,021 $ 713,231 $ 87,286 $ 10,089,722 $ 11,199,260

Status of Budgetary Resources:

Obligations incurred                                             $ 288,838      $ 421,090      $ 85,156       $  8,139,024 $ 8,934,108
Unobligated balances - available                                    10,751          8,186           194            136,154      155,285
Unobligated balances - not available                                 9,432        283,955         1,936          1,814,544    2,109,867
Total, status of budgetary resources                             $ 309,021      $ 713,231      $ 87,286       $ 10,089,722 $ 11,199,260

Change in Obligated Balance:

Obligated balance, net                                           $    33,010    $     10,553   $ 29,484       $    3,192,072 $          3,265,119
Obligations incurrred, net                                           288,837         421,090     85,157            8,139,024            8,934,108
Less: Gross outlays                                                  278,847         421,165     83,856            7,561,774            8,345,642
Less: Recoveries of prior year unpaid obligations, actual              3,595               1        917              950,444              954,957
Change in uncollected customer payments from
 Federal sources                                                         (31)              -             -                 -                  (31)
Obligated balance, net, end of period                                 39,376          10,476        29,868         2,818,876            2,898,596

Net Outlays

Gross outlays                                                    $ 278,847 $ 421,165 $ 83,856 $                    7,561,774 $          8,345,642
Less: offsetting collections                                       299,146   1,320,706    85,000                           -            1,704,852
Less: distributed offsetting receipts                               32,233           -         -                           -               32,233
Net outlays                                                      $ (52,532) $ (899,541) $ (1,144) $                7,561,774 $          6,608,557




                                                                                                                                   56
                               APPENDIX A
                 FEDERAL COMMUNICATIONS COMMISSION
          STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                             September 30, 2006


Recommendation No.       Condition/Audit Area   Recommendation                  Current Status
Material Weaknesses
I. Control Environment Changes

1                        Control Environment    FCC Order 04-163 was            Closed
                         Changes                intended to publicly clarify
                                                the office responsible for
                                                all of FCC’s financial
                                                activities, including those
                                                of the component entities.
                                                The Chairman, as the
                                                Chief Executive Officer of
                                                the FCC should assess the
                                                need and role of his office
                                                to participate in the day-to-
                                                day financial activities of
                                                the agency rather than the
                                                Managing Director, and
                                                determine if the order
                                                should be rescinded and
                                                replaced with one that fits
                                                the results of his
                                                assessment, clarifying any
                                                future confusion and
                                                strengthening the control
                                                environment by aligning
                                                the roles and functions
                                                with the appropriate
                                                activities.
2                        Control Environment    To clarify and strengthen       Closed
                         Changes                the Office of the
                                                Chairman-delegated roles,
                                                the Chairman should issue
                                                explicit and agency-wide
                                                (or publicly available)
                                                delegations of authority
                                                for individuals instructed
                                                or asked to represent his
                                                office, even if that
                                                delegation is one of a
                                                temporary nature.
3                        Control Environment    Because financial               Closed
                         Changes                reporting is mandated and
                                                must be complete at a
                                                time-definite, management
                                                should ensure that it meets
                                                all delivery timeframes,
                                                external and internal, to
                                                ensure effective and
                                                efficient use of agency
                                                resources, and to achieve
                                APPENDIX A
                  FEDERAL COMMUNICATIONS COMMISSION
           STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                              September 30, 2006


                                                       more positive results.
Recommendation No.        Condition/Audit Area         Recommendation                   Current Status

4                         Control Environment          To protect the agency from       Closed
                          Changes                      compromising its
                                                       requirement to support the
                                                       independence of the Office
                                                       of Inspector General,
                                                       senior management,
                                                       including OCM, should
                                                       become acquainted with
                                                       the Inspectors General
                                                       Act, its purpose, and
                                                       become more familiar with
                                                       the Inspector General’s
                                                       role and responsibilities to
                                                       the agency, that is, if it has
                                                       not already done so.
II. Component Entities' Financial Reporting Controls

5                         A. Control Over              Ensure that the financial        Open: Now a reportable
                          Budgetary Transactions       policies and procedures          condition
                                                       are finalized and include,
                                                       among others, monthly
                                                       reconciliation of budgetary
                                                       and proprietary accounts,
                                                       consistent application of
                                                       budgetary transactions,
                                                       and follow-up procedures
                                                       on weaknesses identified
                                                       in reports issued by its
                                                       service organizations.
6                         A. Control Over              Ensure the component             Open: Now a reportable
                          Budgetary Transactions       entities’ full                   condition
                                                       implementation of the
                                                       USSGL posting model at
                                                       the transaction level.
7                         A. Control Over              Design the Pre-Petition          Closed
                          Budgetary Transactions       Bankruptcy accounts
                                                       receivable sub ledger to
                                                       report the net receivable
                                                       amount from each Filer
                                                       ID.
                              APPENDIX A
                FEDERAL COMMUNICATIONS COMMISSION
         STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                            September 30, 2006



Recommendation No.   Condition/Audit Area        Recommendation                 Current Status

8                    A. Control Over             Finalize and consistently      Open: Now a reportable
                     Budgetary Transactions      implement the FCC              condition
                                                 policies and procedures
                                                 related to the reporting
                                                 components’ financial
                                                 reporting, compilation, and
                                                 review process to include
                                                 review procedures that
                                                 will assess and assure data
                                                 integrity, completeness,
                                                 existence, quality and
                                                 reliability of the financial
                                                 data.
9                    A. Control Over             Institute a methodology to     Open: Now a reportable
                     Budgetary Transactions      record the correct             condition
                                                 receivable amount at the
                                                 time of recognition instead
                                                 of recording duplicate
                                                 receivables and correcting
                                                 the entry at a later time.
10                   A. Control Over             Develop a subsidiary           Open: Now a reportable
                     Budgetary Transactions      ledger for USF account         condition
                                                 payable details to support
                                                 the reported balances.
11                   A. Control Over             Require the administrator      Open: Now a reportable
                     Budgetary Transactions      of TRS to obtain an            condition
                                                 accountant with related
                                                 experience to take
                                                 responsibility for TRS
                                                 accounts and compile
                                                 consolidating TRS
                                                 financial data into GAAP
                                                 financial statements.
12                   B. Universal Service Fund   The USF administrator          Closed
                     Commitments                 should establish written
                                                 policies and procedures,
                                                 and implement internal
                                                 controls to ensure
                                                 completeness, existence,
                                                 and proper valuation of the
                                                 commitment letter
                                                 amounts.
                              APPENDIX A
                FEDERAL COMMUNICATIONS COMMISSION
         STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                            September 30, 2006



Recommendation No.   Condition/Audit Area        Recommendation                Current Status

13                   B. Universal Service Fund   To support future [audit]     Closed
                     Commitments                 representations, the FCC
                                                 in coordination with USF
                                                 administrator should verify
                                                 and validate commitment
                                                 letter balances, activity,
                                                 and transactions as of
                                                 September 30, 2005, no
                                                 later than the second
                                                 quarter of fiscal year 2006
                                                 to determine if the
                                                 balances are fairly
                                                 materially stated in
                                                 accordance with generally
                                                 accepted accounting
                                                 principles.
14                   B. Universal Service Fund   Establish a cross-bureau      Closed
                     Commitments                 and cross-entity task force
                                                 to address the USF
                                                 commitment and
                                                 obligations issue. The task
                                                 force should be similar in
                                                 scope and approach as the
                                                 Spectrum Auction Loan
                                                 Servicing Activity task
                                                 force that was used to
                                                 address the material issues
                                                 related to FCC spectrum
                                                 auction loans.
15                   C. Timelines of             Implement procedures to       Open: Now a reportable
                     Transactions Entry and      ensure that the reporting     condition
                     Reconciliation              components’ unadjusted
                                                 balances are reconciled
                                                 and supported with
                                                 appropriate roll-forward
                                                 analysis.
16                   C. Timelines of             Ensure that the reporting     Open: Now a reportable
                     Transactions Entry and      components received and       condition
                     Reconciliation              understood the year-end
                                                 adjusting entries which
                                                 should be promptly
                                                 recorded on their books.
                                APPENDIX A
                  FEDERAL COMMUNICATIONS COMMISSION
           STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                              September 30, 2006



Recommendation No.          Condition/Audit Area      Recommendation               Current Status

17                          C. Timelines of           Improve quality control      Open: Now a reportable
                            Transactions Entry and    reviews of audit schedules   condition
                            Reconciliation            to ensure material
                                                      differences are identified
                                                      and closed timely.
18                          D. Control Over USF       Review the reasonableness    Closed
                            Investment Transactions   and accuracy of the bank
                                                      investment reports before
                                                      recording them in the
                                                      books and submitting the
                                                      financial information to
                                                      FCC.
19                          D. Control Over USF       Modify the existing          Closed
                            Investment Transactions   template used for
                                                      calculating unamortized
                                                      discounts and premiums to
                                                      ensure correctness of the
                                                      calculations.
20                          D. Control Over USF       Ensure all accounts are      Closed
                            Investment Transactions   properly classified in the
                                                      financial statements.
21                          E. Controls Over          Implement appropriate        Open: Now a reportable
                            Compliance with Laws      corrective action plan to    condition
                            and Regulations           address the
                                                      recommendations
                                                      contained in the report.
III. Auction Transactions

22                          A. Auction Revenue and    Issue a directive for WTB    Open: Now a reportable
                            Receivables               to ensure that all auction   condition
                                                      and licensing activities
                                                      with financial impact are
                                                      reported to FOC for timely
                                                      and proper recording.
                               APPENDIX A
                 FEDERAL COMMUNICATIONS COMMISSION
          STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                             September 30, 2006



Recommendation No.       Condition/Audit Area        Recommendation                Current Status

23                       A. Auction Revenue and      Establish a database for      Open: Now a reportable
                         Receivables                 WTB that is capable of        condition
                                                     being linked or interfaced
                                                     with the core financial
                                                     system to create an audit
                                                     trail and record of
                                                     delinquent winning
                                                     bidders whose licenses
                                                     were cancelled and then
                                                     re-auctioned, including the
                                                     amounts collected or
                                                     received from the re-
                                                     auction. Until this
                                                     database becomes
                                                     operational, FCC should
                                                     create and maintain a
                                                     comprehensive schedule
                                                     that will provide this
                                                     information. The
                                                     comprehensive schedule
                                                     should be periodically
                                                     reviewed and reconciled.
24                       B. Spreadsheet Subsidiary   Implement change control      Closed
                         Ledger System (Modified     procedures over
                         Repeat Condition)           spreadsheet applications to
                                                     ensure that changes are
                                                     reviewed and authorized,
                                                     and formula cells are
                                                     protected.
IV. FCC's Contingency Plans

25                       FCC's Contingency Plans     Complete the development      Closed
                                                     and implementation of a
                                                     comprehensive
                                                     contingency plan that
                                                     integrates the individual
                                                     plans of FCC’s data
                                                     centers, networks, and
                                                     telecommunications
                                                     facilities.
                              APPENDIX A
                FEDERAL COMMUNICATIONS COMMISSION
         STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                            September 30, 2006



Recommendation No.   Condition/Audit Area      Recommendation                Current Status

26                   FCC's Contingency Plans   Ensure that the COOP          Closed
                                               includes the recovery of
                                               FCC’s major applications
                                               in accordance with
                                               recovery times deemed
                                               critical to mission and
                                               operations of the bureaus
                                               and offices.
27                   FCC's Contingency Plans   Develop a contingency         Closed
                                               plan for certain FCC
                                               system assets.
REPORTABLE CONDITIONS
V. Financial Reporting

28                   A. Integrated Financial   Ensure the integration of     Open
                     Management Systems        the overall financial
                     (Repeat Condition)        management systems.
                                               These integrations should
                                               include all receivable
                                               transactions to be recorded
                                               in RAMIS, the fee billing
                                               system, the auction
                                               subsidiary systems, and
                                               various stand-alone
                                               systems such as the
                                               property management
                                               system, databases,
                                               spreadsheets and reporting
                                               components’ financial
                                               reporting.
29                   A. Integrated Financial   Authorize the loan service    Open
                     Management Systems        provider to implement the
                     (Repeat Condition)        necessary functional
                                               requirements to meet
                                               JFMIP’s loan servicing
                                               system standards.
30                   A. Integrated Financial   Ensure that the USF           Open
                     Management Systems        general ledger system is in
                     (Repeat Condition)        full compliance with the
                                               Financial Management
                                               System requirements and
                                               the USSGL.
                               APPENDIX A
                 FEDERAL COMMUNICATIONS COMMISSION
          STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                             September 30, 2006



Recommendation No.    Condition/Audit Area        Recommendation                 Current Status

31                    B. Federal Financial        Perform a periodic or          Open
                      System Setup and Posting    quarterly update of FFS
                      Model Definitions (Repeat   system setup and posting
                      Condition)                  model definitions to
                                                  ensure timely correction of
                                                  outdated models and
                                                  compliance with the latest
                                                  transaction posting models
                                                  consistent with USSGL
                                                  guidance and policies for
                                                  recording and classifying
                                                  transactions.
32                    C. Financial Statement      Ensure timely                  Open
                      and Federal Agencies'       communications of
                      Centralized Trial-Balance   adjusting entries and
                      System II (FACTS II)        reconciliations between all
                      Differences (Repeat         groups within FCC with
                      Condition)                  financial reporting
                                                  responsibilities.
VI. Cost Accounting

33                    A. Minimum Level of         Enhance BEAMS                  Open
                      Cost Accounting             functionality to satisfy the
                      (Modified Repeat            minimum level of cost
                      Condition)                  accounting required in a
                                                  managerial cost
                                                  accounting system by
                                                  SFFAS No. 4.
34                    A. Minimum Level of         Define outputs produced        Open
                      Cost Accounting             by the responsibility
                      (Modified Repeat            segments and incorporate
                      Condition)                  the definition into the
                                                  Statement of Net Costs
                                                  allocation methodology.
35                    B. Matching Revenue to      Review the propriety of        Open
                      Cost (Repeat Condition)     the costing methodology
                                                  and the matching of earned
                                                  revenue against costs.
                                                  Include a review of
                                                  different program
                                                  activities that generate
                                                  revenue and apply the
                                                  revenue to those activities
                                                  that produce the earned
                                                  revenue.
                                APPENDIX A
                  FEDERAL COMMUNICATIONS COMMISSION
           STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                              September 30, 2006



Recommendation No.         Condition/Audit Area      Recommendation                Current Status

VII. Reconciliation of Intragovernmental Transaction Balances

36                         Reconciliation of         Perform quarterly             Closed
                           Intragovernmental         reconciliation of
                           Transaction Balances      intragovernmental
                                                     transactions and balances
                                                     with other Federal
                                                     agencies. The
                                                     reconciliation process
                                                     should be completed
                                                     quarterly and include
                                                     procedures to resolve any
                                                     differences identified in a
                                                     timely manner. The
                                                     procedure should also
                                                     include confirming
                                                     amounts with trading
                                                     partners and meeting with
                                                     trading partners to resolve
                                                     differences identified.
VIII. Payroll and Personnel Activities

37                         A. Payroll Activities     Increase the NFC and FCC      Open
                                                     system reconciliation
                                                     procedures to include all
                                                     leave categories.
38                         A. Payroll Activities     Ensure that timekeepers       Open
                                                     reconcile time and
                                                     attendance report errors
                                                     generated from the FCC’s
                                                     desktop payroll
                                                     reconciliation system.
39                         A. Payroll Activities     Enhance the LES system        Open
                                                     capabilities to reject
                                                     incorrect project codes
                                                     from being entered in the
                                                     system in the first place.
40                         A. Payroll Activities     Issue guidance to establish   Open
                                                     timeframes for employees
                                                     to correct invalid project
                                                     code errors.
41                         A. Payroll Activities     Provide the FCC contact       Open
                                                     person at NFC with a
                                                     listing of uncorrected
                                                     project codes monthly.
                                APPENDIX A
                  FEDERAL COMMUNICATIONS COMMISSION
           STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                              September 30, 2006



Recommendation No.        Condition/Audit Area      Recommendation                Current Status

42                        B. Personnel Activities   Ensure documentation          Closed
                                                    related to personnel
                                                    actions or employee
                                                    benefits are promptly
                                                    updated and filed in the
                                                    OPF.
43                        B. Personnel Activities   Implement procedures to       Open
                                                    ensure that the network
                                                    accounts of separating
                                                    employees are terminated
                                                    at the effective date of
                                                    separation.
IX. Debt Collection Improvement Act

44                        Debt Collection           Refer all eligible            Open
                          Improvement Act           delinquent debt more than
                                                    180 days old to the
                                                    Department of the
                                                    Treasury for offset or
                                                    timely cross servicing.
45                        Debt Collection           Perform a review of the       Open
                          Improvement Act           delinquency debt letter
                                                    procedures to ensure that
                                                    all delinquent debtors
                                                    receive dunning letters and
                                                    interest, penalties, and
                                                    administrative fees are
                                                    assessed in conjunction
                                                    with the submission of the
                                                    letters to the debtors.
46                        Debt Collection           Strengthen quality controls   Open
                          Improvement Act           surrounding preparation
                                                    and submission of reports
                                                    to external government
                                                    agencies, including
                                                    independent review and
                                                    reconciliation.
X. Electronic Data Processing (EDP) Controls

47                        A. OMB Circular No. A-    Issue a new directive to      Open
                          130 Requirement for a     replace the expired
                          Comprehensive Security    information security
                          Plan (Modified Repeat     directive 1131.1.
                          Condition)
                              APPENDIX A
                FEDERAL COMMUNICATIONS COMMISSION
         STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                            September 30, 2006



Recommendation No.   Condition/Audit Area       Recommendation                 Current Status

48                   A. OMB Circular No. A-     Make a determination on        Closed
                     130 Requirement for a      whether the contractor
                     Comprehensive Security     loan servicing system
                     Plan (Modified Repeat      application should be a
                     Condition)                 major application given
                                                that FCC identified
                                                RAMIS and the loan
                                                servicing spread sheets as
                                                major applications.
49                   A. OMB Circular No. A-     Ensure that transmission       Open
                     130 Requirement for a      of all sensitive data to and
                     Comprehensive Security     from FCC’s contractors
                     Plan (Modified Repeat      and business partners is
                     Condition)                 protected and encrypted.
50                   A. OMB Circular No. A-     Ensure that the “principle     Open
                     130 Requirement for a      of least privilege” is
                     Comprehensive Security     adequately enforced across
                     Plan (Modified Repeat      all major applications and
                     Condition)                 general support systems.
51                   A. OMB Circular No. A-     Ensure that periodic           Open
                     130 Requirement for a      recertification of users’
                     Comprehensive Security     access to its major
                     Plan (Modified Repeat      applications is adequately
                     Condition)                 enforced and operating
                                                effectively to ensure the
                                                “principle of least
                                                privilege” is in place and
                                                that incompatible duties
                                                are properly segregated.
52                   A. OMB Circular No. A-     Ensure that the                Open
                     130 Requirement for a      recertification process for
                     Comprehensive Security     all systems (including
                     Plan (Modified Repeat      contractors) is thorough
                     Condition)                 and complete.
53                   B. RAMIS Application       Complete the                   Closed
                                                implementation of
                                                recommendations made in
                                                the report on RAMIS.
54                   C. Security Training and   Require that upon an           Closed
                     Education (Modified        acceptance of an FCC
                     Repeat Condition)          position, the new
                                                employee receive a packet
                                                with IT security training
                                                courses and dates, and a
                                                copy of FCC’s Rules of
                                                Behavior.
                              APPENDIX A
                FEDERAL COMMUNICATIONS COMMISSION
         STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                            September 30, 2006



Recommendation No.   Condition/Audit Area        Recommendation                Current Status

55                   C. Security Training and    Ensure and require that on    Closed
                     Education (Modified         the first day of work each
                     Repeat Condition)           employee reads and signs
                                                 the Rules of Behavior as
                                                 part of the orientation
                                                 process.
56                   C. Security Training and    Require each employee to      Closed
                     Education (Modified         accomplish a certain
                     Repeat Condition)           amount of security training
                                                 per year to continue in his
                                                 or her position.
57                   D. Employee Duties and      Review and approve the        Closed
                     Position Risk Designation   Personnel and Security
                     (Modified Repeat            Suitability Manual.
                     Condition)
58                   D. Employee Duties and      Prioritize individual         Closed
                     Position Risk Designation   position reviews and make
                     (Modified Repeat            the necessary funds
                     Condition)                  available to perform the
                                                 task.
59                   E. OMB Circular No. A-      USF administrator should      Closed
                     130 Requirements for USF    complete the certification
                     (Modified Repeat            and accreditation of its
                     Condition)                  major applications and
                                                 general support systems.
60                   F. USF Password             Strengthen password           Closed
                     Controls (Modified Repeat   controls in accordance
                     Condition)                  with USF administrator’s
                                                 password policy.
                         APPENDIX B

  Federal Communication Commission Management’s Response to
Independent Auditor’s Reports on Internal Controls and Compliance
          with Laws and Regulations for Fiscal Year 2006
                                                                     Office of the Managing Director
                                                                                      MEMORANDUM




DATE:           November 14, 2006

TO:             Kent R. Nilsson, Inspector General

FROM:           Anthony J. Dale, Managing Director and Mark Stephens, Chief Financial Officer

SUBJECT:        Management’s Response to Independent Auditor’s Reports on Internal Controls and
                Compliance with Laws and Regulations for Fiscal Year 2006


Thank you for the opportunity to review and comment on the draft reports entitled Independent Auditor’s Report
on Internal Control and Independent Auditor’s Report on Compliance with Laws and Regulations. We
appreciate the efforts of your team and the independent auditor, Clifton Gunderson LLP, to work with the
Federal Communications Commission (Commission) throughout the fiscal year (FY) 2006 audit process.

We are pleased that the audit opinion was unqualified and that the independent auditor found that the
Commission’s consolidated financial statements for FY 2006 present fairly, in all material respects, the financial
position of the Commission as of September 30, 2006. We have worked very hard over the past year to
strengthen the Commission’s internal controls and improve its financial management. We are also pleased that,
for the first time, the independent auditor has found that no “material weaknesses” affect the Commission’s
operations.

Despite these successes and efforts, additional work remains. The FY 2006 Report on Internal Control notes
seven reportable conditions, and the Report on Compliance with Laws and Regulations notes instances on non-
compliance with one law and two regulations. We concur with the recommendations made by the independent
auditor in its report.

In addressing the reportable conditions, the Commission understands that the greatest opportunity and challenge
to improving its financial reporting is to implement an integrated financial management system. The
Commission has made the acquisition and implementation of a new core financial management system a top
priority and has started an aggressive plan to acquire and deploy a new system. The Commission plans to
complete the first phase of this project in FY 2007, and will implement its new core financial management
system no later than October 1, 2009. A new core financial system will substantially improve the Commission’s
financial management by enabling more efficient operations and by addressing several audit recommendations
that were raised in the independent auditor’s report.

In FY 2007, the Commission also will continue to enhance its oversight and control over the activities of its
reporting components in order to improve fiscal management, strengthen accountability, and resolve the
independent auditor’s longstanding findings on this issue. The Commission will also work with the reporting
components to ensure that their financial systems meet the appropriate standards and expectations.
The remaining reportable conditions in the independent auditor’s report relate to operational issues at the
Commission, including flaws with payroll and personnel reporting processes; lack of timely and comprehensive
referral of outstanding debts to the Department of the Treasury for collection activities; and compliance with
Office of Management and Budget (OMB) guidance on information security controls for the Commission’s
information systems. The Commission is already working to assess fully these reportable conditions and to
develop corrective action plans. During FY 2007, the Commission will make every effort to implement
corrective action plans for each of the recommendations associated with these findings.

Finally, the Commission notes that the findings of non-compliance in the Report on Compliance with Laws and
Regulations were also generally referenced in the Report on Internal Controls. The Commission will take the
appropriate steps to ensure future compliance as part of its efforts to remediate the reportable conditions raised
by the independent auditor.

We are committed to continually strengthening the internal controls of the Commission and its reporting
components. This commitment includes developing timely, accurate, and useful performance and financial
information to ensure the most effective stewardship of both the funds that the Commission oversees and the
funds that the Commission uses to finance its operations. We look forward to working in FY 2007 to resolve
the FY 2006 audit findings and to enhance the culture of integrity, accountability, and excellence that exists here
at the Commission.




                                                 Anthony J. Dale, Managing Director
                                                 Office of Managing Director




                                                 Mark Stephens, Chief Financial Officer
                                                 Office of Managing Director
